<html>
<title> - GRANT REFORM: THE FASTER AND SMARTER FUNDING FOR FIRST RESPONDERS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
   GRANT REFORM: THE FASTER AND SMARTER FUNDING FOR FIRST RESPONDERS

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 14, 2005

                               __________

                            Serial No. 109-8

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                    U.S. GOVERNMENT PRINTING OFFICE
22-844                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012006


                     COMMITTEE ON HOMELAND SECURITY



                 Christopher Cox, California, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania, Vice      Edward J. Markey, Massachusetts
Chairman                             Norman D. Dicks, Washington
Christopher Shays, Connecticut       Jane Harman, California
Peter T. King, New York              Peter A. DeFazio, Oregon
John Linder, Georgia                 Nita M. Lowey, New York
Mark E. Souder, Indiana              Eleanor Holmes Norton, District of 
Tom Davis, Virginia                  Columbia
Daniel E. Lungren, California        Zoe Lofgren, California
Jim Gibbons, Nevada                  Sheila Jackson-Lee, Texas
Rob Simmons, Connecticut             Bill Pascrell, Jr., New Jersey
Mike Rogers, Alabama                 Donna M. Christensen, U.S. Virgin 
Stevan Pearce, New Mexico            Islands
Katherine Harris, Florida            Bob Etheridge, North Carolina
Bobby Jindal, Louisiana              James R. Langevin, Rhode Island
Dave G. Reichert, Washington         Kendrick B. Meek, Florida
Michael McCaul, Texas
Charlie Dent, Pennsylvania

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, and Chairman, Committee on Homeland 
  Security.......................................................     1
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     2
The Honorable Peter A. DeFazio, a Representative in Congress From 
  the State of Oregon............................................    16
The Honorable Charles W. Dent, a Representative in Congress From 
  the State of Pennsylvania......................................    22
The Honorable Bob Etheridge, a Representative in Congress From 
  the State of North Carolina....................................    14
The Honorable Jim Gibbons, a Representative in Congress From the 
  State of Nevada................................................    13
The Honorable Jane Harman, a Representative in Congress From the 
  State of California............................................    11
The Honorable Sheila Jackson-Lee, a Representative in Congress 
  From the State of Texas........................................    56
The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island.................................    52
The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California...................................    19
The Honorable Bill Pascrell, Jr., a Representative in Congress 
  From the States of New Jersey..................................    20
The Honorable Stevan Pearce, a Representative in Congress From 
  the State of New Mexico........................................    15
The Honorable Mike Rogers, a Representative in Congress from the 
  State of Alabama...............................................    52
The Honorable Christopher Shays, a Representative in Congress 
  From the State of Connecticut..................................    10
The Honorable Rob Simmons, a Representative in Congress From the 
  State of Connecticut...........................................    21
The Honorable Lamar S. Smith, a Representative in Congress From 
  the State of Texas.............................................    10

                                WITNESS

Panel I
The Honorable Lee. H. Hamilton, Vice Chair, National Commission 
  on Terrorist Attacks Upon the United States:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5
Panel II
Mr. Louis P. Cannon, President, District of Columbia Lodge #1:
  Oral Statement.................................................    28
  Prepared Statement.............................................    30
Ms. Mary Fetchet, Founding Director, Voices of September 11:
  Oral Statement.................................................    23
  Prepared Statement.............................................    26
Chief Greg Lord, Director, National Association of Emergency 
  Medical Associations, Division Chief--EMS, Cherokee County 
  Fire-Fighters:
  Oral Statement.................................................    39
  Prepared Statement.............................................    41
Mr. Kevin B. O'Connor, Associate to the General President, 
  International Association of Fire Fighters:
  Oral Statement.................................................    32
  Prepared Statement.............................................    34


                      GRANT REFORM: THE FASTER AND
                       SMARTER FUNDING FOR FIRST
                         RESPONDERS ACT OF 2005

                              ----------                              


                        Thursday, April 14, 2005

                          House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 11:09 a.m., in Room 
210, Cannon House Office Building, Hon. Christopher Cox 
[chairman of the committee] presiding.
    Present: Representatives Cox, Smith, Shays, King, Lungren, 
Gibbons, Simmons, Etheridge, Rogers, Pearce, Harris, Reichert, 
Dent, Thompson, Harman, DeFazio, Norton, Lofgren, Jackson-Lee, 
Pascrell, Langevin, and Meek.
    Chairman Cox. [Presiding.] Good morning.
    Let me welcome our witnesses, both our former colleague, 
the Honorable Lee Hamilton, and those who will next testify.
    And I would announce to members that we are expecting to be 
interrupted by votes. Mr. Hamilton has an hour to be with us. 
My suggestion is that we commence immediately, that we keep a 
member always in the chair, and that we proceed with our 
interaction.
    With that understanding, let me welcome you, Mr. Hamilton. 
Thank you for being here.
    I would point out that earlier this week, this committee's 
Subcommittee on Emergency Preparedness, Science, and 
Technology, ably led by our colleagues, Peter King and Bill 
Pascrell, heard testimony from government officials, outside 
experts and several states about the problems with the current 
grant system for first responders.
    It was just the latest in a string of hearings that this 
committee and its predecessor, the Select Committee on Homeland 
Security, have conducted on this issue. And all of this 
investigation and oversight in these hearings have led to one 
inescapable conclusion: the current system is broken and 
something needs to be done immediately.
    This is something, by the way, that our entire country 
increasingly seems in agreement upon, whether in large urban 
areas or in America's heartland. The system is slow and 
inefficient. It also ignores risk in favor of political 
formulas.
    Until we fix it, our nation will remain less secure and our 
first responders, ill prepared. That is why a central 
recommendation of the 9/11 Commission was risk-based funding 
for terrorism preparedness grants.
    H.R. 1544, the Faster and Smarter Funding for First 
Responders Act of 2005, will carry into law the specific 
recommendations of the 9/11 Commission on this subject. The 
bill was introduced in the 109th Congress on Tuesday by myself 
and Ranking Member Thompson, and it is cosponsored by every 
Republican and Democrat on the Homeland Security Committee.
    It is virtually identical to our First Responder Bill, 
enacted--I should say passed--by the Select Committee on 
Homeland Security in the 108th Congress, which was also passed 
by the House and included in the House's version of the 9/11 
Commission Recommendations Implementation Act.
    I am pleased to note that our witnesses, the Honorable Lee 
Hamilton, Mary Fetchet, representing the families of 9/11 
victims, the International Association of Fire Fighters, the 
Fraternal Order of Police and the National Association of 
Emergency Medical Technicians all endorsed the first responder 
provisions of H.R. 10 last year and are working with us to 
ensure passage of H.R. 1544 this year.
    The 9/11 Commission recommended that ``homeland security 
assistance should be based strictly on an assessment of risk 
and vulnerability.'' H.R. 1544 recognizes the need to address 
our greatest risks and vulnerabilities first. It requires the 
department to allocate homeland security assistance funds to 
states, regions, and directly eligible Indian tribes based upon 
the degree to which they would lessen the threat to, 
vulnerability of and the consequences for persons and critical 
infrastructure.
    According to the 9/11 Commission, any risk assessment 
``should consider such factors as population, population 
density, vulnerability and the presence of critical 
infrastructure within each state.'' H.R. 1544 does that as 
well.
    In addition, the commission recommended that the federal 
government convene ``a panel of security experts to develop 
written benchmarks for evaluating community needs.'' Again, 
H.R. 1544 satisfies that recommendation. It directs the 
Secretary to establish a 25-member advisory body, composed of 
first responders from the state and local level, for the 
purpose of assisting in the development of essential 
capabilities for terrorism preparedness.
    Finally, the 9/11 Commission recommends that ``states be 
required to abide by these written benchmarks in disbursing 
federal funds and that each state be required to justify the 
distribution of funds in that state based on the same risk 
criteria used at the federal level.'' H.R. 1544 does both of 
these things.
    It does so requiring states in their planning to prioritize 
their additional needs for essential capabilities according to 
threat, vulnerability and consequence factors and to allocate 
their dollars accordingly. It is my sincere hope that the House 
will pass H.R. 1544 in the next few weeks. And when it does, 
the nation will owe a debt of gratitude to our witnesses, who 
have fought and who continue to fight, for first responder 
grant reform.
    Let me thank you all in advance of your testimony for being 
here with us today and yield to my distinguished colleague from 
Mississippi, Mr. Thompson.
    Mr. Thompson. Thank you, Mr. Chairman.
    And I welcome Congressman Hamilton of the 9/11 Commission 
to this committee.
    I would also like to welcome Ms. Mary Fetchet, who will 
represent Voices of September 11.
    You so adequately put that our present system is broken, 
Mr. Chairman. I do not think there is any question about it. If 
we saw--and a lot of us saw it--the 60 Minutes show this past 
Sunday, we know that right here in Washington, DC, there is 
about $120 million gone unspent so far between 2002 and 2004 
funding.
    I look forward to the passage of H.R. 1544 so that we can 
get a system put in place.
    Mr. Hamilton, let me thank you for your leadership in this 
endeavor. Sometimes, criticism is healthy. Your committee did 
it in a manner that made all of us proud.
    I look forward to your testimony and I look forward to the 
passage of this legislation. And I yield back my time.
    Chairman Cox. Thank the gentleman.
    The chair now recognizes the Honorable Lee H. Hamilton, 
vice chairman of the National Commission on Terrorist Attacks 
Upon the United States.
    Thank you for joining us.

               STATEMENT OF HON. LEE H. HAMILTON

    Mr. Hamilton. Chairman Cox and Ranking Member Thompson and 
distinguished members of the committee, thank you very much for 
giving me the opportunity to appear. I speak, of course, for 
Governor Kean as well.
    Governor Kean, as you know, is president of Drew University 
and they are wrapping up their activities for the year and it 
is very difficult for him to leave the campus at this 
particular time.
    My fellow commissioners are very pleased and gratified by 
the continuing interest of the Congress in the work of the 9/11 
Commission. A lot has been done and accomplished. And I think 
all of us would agree that an awful lot more needs to be done.
    On September 11, the Fire Department of the City of New 
York suffered the largest loss of life of any emergency 
response agency in our nation's history. The Port Authority 
Police Department suffered the largest loss of life of any 
American police force in history.
    The New York Police Department suffered the second largest 
loss of life of any police force in U.S. history, exceeded only 
by the loss by the Port Authority police that same day. We 
heard, of course, many of the harrowing recollections from 
these police and fire. They were absolutely heroic in all of 
their activities.
    Many of them, you know, gave their lives. And as we look to 
the future, all of us on the committee agree that targeted 
investments in the right equipment, training and communication 
could help save lives.
    I was very appreciative, Mr. Chairman, of your statement. I 
agreed with it wholeheartedly, the statement you read just a 
few minutes ago.
    In the post-9/11 era, big city mayors, police and fire 
chiefs and emergency planners are forced to imagine a dizzying 
array of
catastrophic scenarios. As we saw in the aftermath of September 
11, attacks on our political, economic or cultural centers have 
a profound impact on the life of every American.
    Our security depends on the ability of high-risk localities 
to prevent and prepare for attack. In this new kind of war, 
first responders, of course, are on the front line.
    We stated in our report that the issue of homeland security 
funding is too important for politics to prevail as usual.
    I was struck by the fact that you mentioned, Mr. Chairman, 
that all of the members of this committee have cosponsored H.R. 
1544. I am impressed by that. And I thank each one of them for 
doing that. That is an important signal to send to the House 
and to the Congress.
    We made several recommendations in the Commission Report. 
Homeland security assistance should be based strictly on an 
objective, non-political assessment of risks and 
vulnerabilities. These assessments should consider the threat 
of an attack, a locality's vulnerability to an attack and the 
possible consequences of an attack.
    The federal government should develop specific benchmarks 
for evaluating community needs and require that spending 
decisions be made in accordance with those benchmarks. Each 
state receiving funding should provide an analysis of how funds 
are allocated and spent within the state. And each state and 
city should have a minimum infrastructure for emergency 
response.
    Unfortunately, the current formula for distributing 
homeland security funds falls far short of meeting the 
commission's recommendations. Billions of federal dollars have 
been distributed with no consideration of risk in the 
allocation process.
    While major cities stretch their budgets to cope with the 
constant terrorist threat, sparsely populated counties have 
used their grants to purchase extravagant equipment they 
probably do not need, based on current risk. No requirement has 
existed to ensure that funds are distributed within states 
according to risk. While a few states--notably New York--have 
been diligent in ensuring the rational distribution of funds, 
this has been the exception rather than the rule.
    The federal government has not established benchmarks for 
evaluating community needs or guidelines for the most effective 
use of preparedness funding. That means that spending decisions 
have often been made after funds are received.
    In many cases, the funding arrives as an unexpected 
windfall and is often spent with the same lack of forethought, 
not adhering to any state or regional homeland security plan. 
Existing threat assessment and risk management tools available 
in the Department of Homeland Security should be utilized to 
assist Congress, states and local communities in making 
rational decisions.
    I would like to note and commend that this committee has 
done outstanding work investigating the allocation of these 
funds since 9/11, especially its analysis of the use of first 
responder grant funding in fiscal years 2002 and 2003. 
Oversight of executive branch programs remains one of 
Congress's most critical duties, especially in an era when vast 
sums of taxpayer money are being allocated so quickly.
    This committee's work on first responder grant funding is 
an example of the kind of oversight that is needed to ensure 
that the agencies and programs responsible for our security are 
functioning effectively. Section 7401 of the Intelligence 
Reform and Terrorism Prevention Act of 2004 contains Sense of 
Congress Language urging the 109th to reform the system for 
distributing first responder grants to state and local 
governments.
    The 9/11 commissioners and I were disappointer that the 
bill did not address the issue. We noted last October in a 
letter to Congress that the bipartisan language from this 
committee contained in H.R. 10 was in line with the spirit of 
our recommendations. And we would like to have seen it in the 
conference report.
    I am very pleased and heartened that the committee has once 
again moved forward in a bipartisan fashion to address the 
funding formula question. The Smarter Funding for First 
Responders Act, H.R. 1544, will be an enormous step forward in 
terms of national preparedness. You are familiar with the terms 
of the bill; I will not go into that.
    Each of these reforms is in line with our recommendations 
and we will believe will greatly improve the effectiveness of 
this program.
    Finally, I would like to take this opportunity to touch on 
a final related issue of concern. In our report, we urged that 
Congress not use homeland security funding as a political pork 
barrel.
    The inclusion of numerous earmarked projects in the 
Homeland Security Appropriations Bill would be a step backward. 
It would reduce the discretion of the Department of Homeland 
Security to allocate these funds where they are needed. And I 
would encourage members to resist earmarking on these scarce 
funds.
    Thank you again for the excellent work done on this 
critical issue, your leadership, your bipartisanship, your 
dedication to rigorous oversight. Your enthusiasm for reform 
has already validated the commission's recommendations for a 
permanent standing Committee on Homeland Security.
    We welcome all efforts to strengthen the oversight work of 
this committee, to strengthen the authorities of this committee 
over counterterrorism programs of the Department of Homeland 
Security.
    H.R. 1544 is a significant step forward in terms of 
national preparedness. Our current system for distributing 
federal homeland security funds is not worthy of the 
seriousness of the task.
    The bill would create a rational, risk-based model for 
allocating federal homeland security funding. It would greatly 
improve the effectiveness of the grant program and the security 
of the American people.
    I thank the committee for its continuing interest in our 
recommendations. And I would be pleased to respond to 
questions.
    [The statement of Mr. Hamilton follows:]

               Prepared Statement of Hon. Lee H. Hamilton

    Chairman Cox, Ranking Member Thompson, distinguished members of the 
Committee:
    I am honored to appear before you today to discuss reforming 
federal first responder funding. Thank you for requesting my views on 
this subject of great national importance.
    My fellow former Commissioners and I are gratified by the 
continuing interest of the Congress in the work of the 9/11 Commission. 
While last year's intelligence reform bill fulfilled or partially 
addressed many of our recommendations, much work remains to be done. 
Therefore, I appreciate the opportunity to discuss with you today one 
of our recommendations that still requires the attention of the 
Congress.
    On September 11, 2001, the Fire Department of the City of New York 
suffered the largest loss of life of any emergency response agency in 
our nation's history. The Port Authority Police Department suffered the 
largest loss of life of any American police force in history. The New 
York Police Department suffered the second largest loss of life of any 
police force in U.S. history, exceeded only by the loss of Port 
Authority police that same day. Our Commission heard many harrowing 
recollections from police and firefighters who responded to the 
attacks.
    The performance of first responders that day was heroic. So many 
gave their lives. As we look to the future, all of us on the Commission 
agreed that targeted investments in the right equipment, training and 
communications could help save lives, both of first responders and 
those they seek to rescue.
    In his testimony before our Commission, New York Police 
Commissioner Ray Kelly underlined the importance of federal grants to 
first responders in high-threat areas. He said: ``The federal 
government must invest realistically in protecting those areas the 
terrorists are likely to try to hit again. Along with a few other major 
cities, New York tops that list. Everything we know about Al-Qa'ida 
tells us this is true. It is a lesson from our history we simply cannot 
afford to ignore.''
    In the post-9/11 era, big city mayors, police and fire chiefs, and 
emergency planners are forced to imagine a dizzying array of 
catastrophic scenarios. As we saw in the aftermath of September 11th, 
attacks on our political, economic, and cultural centers have a 
profound impact on the life of every American. Our security depends on 
the ability of high-risk localities to prevent and prepare for attacks. 
In this new kind of war, first responders are on the front lines. For 
them, homeland security funding can be a matter of life and death. As 
we stated in our report, ``this issue is too important for politics as 
usual to prevail.''
    Our Commission made several specific recommendations on this 
subject:
        <bullet> Homeland security assistance should be based strictly 
        on an objective, non-political assessment of risks and 
        vulnerabilities. These assessments should consider the threat 
        of an attack, a locality's vulnerability to an attack, and the 
        possible consequences of an attack.
        <bullet> The federal government should develop specific 
        benchmarks for evaluating community needs, and require that 
        spending decisions be made in accordance with those benchmarks.
        <bullet> Each state receiving funding should provide an 
        analysis of how funds are allocated and spent within the state; 
        and
        <bullet> Each state and city should have a minimum 
        infrastructure for emergency response.
    Unfortunately, the current formula for distributing homeland 
security funds falls far short of meeting the Commission's 
recommendations.
        <bullet> Billions of federal dollars have been distributed with 
        no consideration of risk in the allocation process. While major 
        cities stretch their budgets to cope with a constant terrorist 
        threat, sparsely populated counties have used their grants to 
        purchase extravagant equipment they probably do not need based 
        on current risk.
        <bullet> No requirement has existed to ensure that funds are 
        distributed within states according to risk. While a few 
        states, notably New York, have been diligent in ensuring 
        rational distribution of funds, this has been the exception 
        rather than the rule.
        <bullet> The federal government has not established benchmarks 
        for evaluating community needs, or guidelines for the most 
        effective use of preparedness funding. This means that spending 
        decisions have often been made after funds are received. In 
        many cases the funding arrives as an unexpected windfall, and 
        is often spent with the same lack of forethought, not adhering 
        to any state or regional homeland security strategic plan. 
        Existing threat assessment and risk management tools available 
        in DHS should be utilized to assist Congress, states and local 
        communities in making rational spending decisions.
     I'd like to note that this Committee has done outstanding work 
investigating the allocation of these funds since 9/11, especially its 
analysis of the use of First Responder Grant Funding in Fiscal Years 
2002 and 2003. Oversight of executive branch programs remains one of 
Congress's most critical duties, especially in an era when vast sums of 
taxpayer money are being allocated so quickly. This Committee's work on 
first responder grant funding is an example of the kind of oversight 
that is needed to ensure that the agencies and programs responsible for 
our security are functioning effectively.
    Section 7401 of the Intelligence Reform and Terrorism Prevention 
Act of 2004 contained sense of Congress language urging the 109th 
Congress to reform the system for distributing first responder grants 
to state and local governments. My fellow Commissioners and I were 
disappointed that the bill itself did not address this issue. We noted 
last October in a letter to Congress that bipartisan language from this 
Committee, contained in H.R. 10, was in line with the spirit of our 
recommendations. We would have liked to have seen it in the conference 
report.
    I am heartened that the Committee has once again moved forward, in 
a bipartisan fashion, to address the funding formula question. The 
Smarter Funding for First Responders Act, H.R. 1544, would be an 
enormous step forward in terms of national preparedness.
        <bullet> This legislation would require that DHS allocate 
        homeland security grant funds according to risk. This is in 
        line with our core recommendation on federal homeland security 
        funding.
        <bullet> It would establish a federal Grant Board of 25 
        homeland security experts, to evaluate state applications on 
        the basis of their potential to reduce the threat of, 
        vulnerability to, and consequences of terrorist attacks.
        <bullet> It would require each state to submit a three-year 
        homeland security plan. This would ensure that grant 
        disbursements are actually being spent according to a rational, 
        coordinated plan, rather than as an unexpected windfall.
        <bullet> Finally, after resources have been allocated according 
        to risk, the bill would ensure that each city and state can 
        maintain a minimal capacity for emergency response, by topping 
        off state allocations that don't reach the 0.25 percent state 
        minimum level. This is a more rational way of ensuring that 
        small communities can maintain this basic capability.
    Each of these reforms is in line with our recommendations, and will 
greatly improve the effectiveness of this program.
    Finally, I would like to take this opportunity to touch on a final, 
related issue of concern. In our report, we urged that Congress not use 
homeland security funding as a political pork barrel. The inclusion of 
numerous earmarked projects in the Homeland Security appropriations 
bill would be a step backward. It would reduce the discretion of DHS to 
allocate these funds where they are needed. I encourage members to 
resist earmarking these scarce funds.
Conclusion
    Once again, I would like to thank the committee for its excellent 
work to date on this critical issue. Your bipartisanship, your 
dedication to rigorous oversight, and your enthusiasm for reform, have 
already validated the Commission's recommendation for a permanent 
standing committee on Homeland Security. We welcome all efforts to 
strengthen the oversight work of this Committee, and to strengthen the 
authorities of this Committee over the counterterrorism programs of the 
Department of Homeland Security.
    H.R. 1544 is a significant step forward in terms of national 
preparedness. Our current system for distributing federal homeland 
security funds is not worthy of the seriousness of the task. This bill 
would create a rational, risk-based model for allocating federal 
homeland security funding. It would greatly improve the effectiveness 
of the grant program, and the security of the American people.
    I thank the Committee once again for its continuing interest in our 
recommendations, and I look forward to your questions.

    Chairman Cox. Thank you very much for your testimony.
    I have just a few questions that I will put--actually, just 
one question. And we will go quickly to the rest of the 
members. We know that your time is limited.
    I want to thank you once again, on behalf not only of the 
Homeland Security Committee, but of the House of 
Representatives. All of us on both sides of the aisle 
appreciate the work that the commission did.
    It was vitally necessary work. And it is helping us move 
forward quickly constructing some rigor to a new discipline 
that frankly none of us was expert in prior to 9/11.
    We have put together a lot of separate disciplines in which 
many of us were experts, but the synthesis of all of these 
things in what we are now calling Homeland Security truly is 
new to us. And I think that some of the missteps that have been 
made in the early going are a reflection of that fact.
    This is probably the most glaring example of a problem that 
Congress made, because we wrote the formulas into the Patriot 
Act that provides arithmetic ways of formulaically distributing 
the funds, rather than doing it on the basis of risk. We now 
have the chance to repair that mistake.
    And the reason it is so important, as you outlined in your 
testimony, is that if we send this money to first responders 
based on unthinking formulas, mindless formulas ignorant of 
what our intelligence is telling us are capabilities of 
terrorists and what their intentions might be, ignorant of our 
own studied vulnerabilities that we are spending a great deal 
of taxpayer resources to discover, ignorant of the consequences 
of various kinds of attacks on population centers, other 
infrastructure and so on, we are doing great damage to our 
national security.
    And I want to ask you because this is something in which 
you are expert by virtue of your long service in the Congress, 
whether you can help us as we try to establish norms by which 
Congress and the political class will deal with homeland 
security the very same way we deal with national security, 
whether there are steps that we can take to educate the nation 
that this is not the highway program; this is not about 
political fairness. It is not about making sure everybody gets 
their slice of the pie; but rather, this is no different than 
the spending that we do for the Pentagon, spending that we do 
for our intelligence community.
    If it works out that we can put intelligence resources or 
defense assets in somebody's home state, that is delightful, 
but that is not the premise from which we proceed. And it has 
been the premise from which we have been proceeding when it 
comes to first responder grants.
    Your thoughts?
    Mr. Hamilton. Mr. Chairman, I think you have stated it very 
well. We very strongly objected to the idea that these homeland 
security funds should be distributed as general revenue sharing 
funds according to political calculations.
    That can be an important program in and of itself, but it 
really has nothing to do with homeland security. We think it is 
very important that the norms that you referred to in your 
question be established.
    Those norms are the threat. What is the threat? What is the 
vulnerability of the community or given infrastructure that is 
in the community?
    What are the consequences of an attack on a given location? 
All of those things and many others have to be taken into 
consideration and the money distributed accordingly.
    Now this is a difficult business. It is not a precise 
science. You have to make judgments and you have to establish 
priorities on the basis of information that is not as complete 
as you would like it to be.
    On the other hand, it is far better to try to make those 
judgments on the basis, as you said, of the intelligence that 
you have. And you will get a much better chance of protecting 
the American people.
    So I think those norms are clear and should be at the basis 
of the allocation of the funding. The most difficult problem in 
homeland security is establishing priorities. And I know 
politicians do not like to establish priorities because it is 
very, very hard to do and you might be wrong.
    Nonetheless, I think it is important in this game that you 
try to establish those priorities on the best information you 
can get. We know quite a bit about what the terrorist wants to 
do.
    They have made it quite clear. They want to inflict as much 
harm on us as they can. They want to kill as many of us as they 
can. They want to hit symbolic targets in this country that 
would have a profound impact on our psychology as a nation.
    We know what their intent is. We have some idea of what 
their capabilities are. But we would be foolish to ignore the 
information that we have about the terrorists and just allocate 
these funds--in my judgment, we are foolish to allocate these 
funds on the basis of political considerations.
    Chairman Cox. I yield back the balance of my time and 
recognize the gentleman from Mississippi, Mr. Thompson.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    And thank you again, Mr. Hamilton, for your testimony.
    You had an opportunity to kind of look at the landscape in 
DHS while producing the report. Do you think, with the passage 
of this legislation, that DHS has the capabilities and funding 
necessary to adequately evaluate risk to distribute grant 
funding?
    Mr. Hamilton. I think my answer to that is yes. The DHS is 
a complex organization, bringing together over 20, I think, 
agencies--maybe more.
    I know you have heard from the new Secretary. And he has 
put very strong emphasis upon intelligence in that department. 
That seems to me to be quite appropriate because all of these 
evaluations you have to make are based on the intelligence.
    I think they have the legal authorities. I think they have 
the capabilities to perform.
    I think the implementation of a complex department like 
that does not come easily. It takes time. But it is important 
that the Secretary be given full support to make the changes 
that I think are necessary.
    Mr. Thompson. Next question, Mr. Hamilton, speaks to 
whether or not the notion that money should be distributed 
solely on risk. One of the concerns we have expressed to 
members of this committee speaks to how rural America will fare 
as we identify risk.
    What do you think we should tell rural America with respect 
to ensuring them that they matter too with respect to what we 
are dealing with from the standpoint of terrorism?
    Mr. Hamilton. Mr. Thompson, of course, I represented a 
rural area so I have some appreciation of the question you put 
forward. But I think I would feel perfectly comfortable going 
to my former constituents and saying, ``Look, this is special 
money. This money is provided to protect American lives. And 
you have to put that money largely where you think the attack 
may come.''
    The attack is less likely to come in rural America. There 
are elements of infrastructure in rural America that need to be 
protected. And I think, as you know, the bill provides and we 
recommended that you have a certain minimum level availability 
for these areas and for the states.
    But this is a very special kind of funding, not to be spent 
willy-nilly, but to be spent to protect American lives. And it 
is the best judgment of our intelligence people over a period 
of time that the terrorists are aiming their activities at 
certain areas especially.
    Everything we have suggests that by way of information: New 
York, Washington, certain critical infrastructure around the 
country. So I think you just have to make a plea to rural 
America on this point and say that there are a lot of areas 
rural America can come into some funding, but this is a special 
case.
    Look, you are dealing here with the responsibility of the 
government to protect the lives of American citizens. And we 
clearly are called upon to make some tough judgments. But you 
have to make those tough judgments here; otherwise, you are not 
protecting the American people as well as you should.
    Mr. Thompson. Well, I too represent a rural area. And I can 
appreciate your approach to it. And some of us plan to do it. 
But it is a concern of a number of people.
    And it is not the notion that rural people do not matter; 
it is that you are evaluating risk. And I think we have to 
really put that out front so people understand what we are 
talking about because it is a problem.
    Mr. Hamilton. Oh, I do not have any doubt about that. You 
have put your finger on an important problem, but I think you 
also stated the answer.
    Mr. Thompson. Thank you, Mr. Chairman. Yield back.
    Chairman Cox. Gentleman's time is expired.
    The gentleman from Connecticut, Mr. Shays?
    Mr. Shays. Thank you. Mr. Chairman, I intend to yield most 
of my time to Mr. Smith, Lamar Smith, because basically I think 
your message is pretty straightforward. The first question from 
you, Mr. Chairman, kind of answers my question.
    But you are never going to appear before me, Mr. Hamilton, 
without me thanking you for the work that you did. Your work 
with your commission and the fact that you put partisanship 
aside borders on almost being sacred. And I thank you for that.
    And I also want to take the time to thank the gentlelady 
behind you, Mary Fetchet, for loving her son so much, Brad, and 
her husband and her family and taking on this issue because we 
would not see all the incredible things that we have seen 
without her incredible work. And I am just so proud that she is 
a constituent.
    And with that, I yield to Lamar Smith.
    Mr. Smith. Mr. Chairman, I would like to thank my friend 
from Connecticut for yielding.
    And Mr. Hamilton, I just had one question for you. A few 
minutes ago in your response to the chairman's question, you 
gave some examples of norms that I thought were helpful.
    But my question goes to that part of your testimony where 
you, in one of your recommendations, say, ``the federal 
government should develop specific benchmarks for evaluating 
community needs and require that spending decisions be made in 
accordance with those benchmarks.'' I wonder if you could also 
be specific as to what benchmarks you might recommend or have 
in mind or just examples of the type of benchmarks that would 
be good for us to take a look at?
    Mr. Hamilton. I am trying, Mr. Smith, to remember the words 
of our report. We certainly did refer to benchmarks. And I do 
not think we were very specific; at least, I cannot recall.
    But the benchmarks certainly would not be different from 
the norms that I recited to the chairman a moment ago. If you 
want to create benchmarks for evaluating the needs in the 
community, okay, what do you look at?
    You are in a community and you ask yourself, ``What in this 
community is going to cause the biggest problem if it is 
exploded?'' And you ask yourself what the consequences of that 
kind of destruction would be.
    And you ask yourself, ``How well is the community prepared 
to respond to an attack?'' Well, I guess, Secretary Ridge used 
to say that homeland security is basically local. And you have 
to figure out locally those things that are most vulnerable. 
And these are the kind of benchmarks I have in mind.
    Mr. Smith. Okay, that is helpful.
    Mr. Hamilton. Look, I live near a hospital in Alexandria, 
Virginia. And my wife works there. She is not exactly very high 
up in the chain of command; she is a volunteer.
    And I asked her the other day, I said, ``How well is this 
hospital prepared in Alexandria, Virginia to respond to a 
terrorist attack?'' That is a benchmark.
    And every one of you ought to be asking the exact same 
thing of the hospitals in your communities. How well are they 
prepared to respond? How well are the first responders prepared 
to respond?
    Those are all benchmarks. There are a lot of them. And they 
are very important.
    Mr. Smith. Thank you, Mr. Hamilton.
    And, Mr. Chairman, I will yield back.
    Chairman Cox. The gentleman's time is expired.
    The gentlelady from California, Ms. Harman?
    Ms. Harman. Thank you, Mr. Chairman. Congratulations to you 
and the ranking member for achieving unanimity on a major bill 
to be reported out of this committee. I am very proud to be a 
cosponsor. And hopefully, that is a harbinger of good things to 
come.
    I would also like to say to our witness, Lee Hamilton, that 
we sorely miss your bipartisanship and sensibility in Congress. 
You are a model to me and I think to most of us here of what a 
member of Congress, former member of Congress, should be.
    And you continue to serve. And I appreciate it.
    Mr. Hamilton. Thank you.
    Ms. Harman. And to Mary Fetchet, I know she is there. I 
cannot see her from here. There she is. You are amazing. And 
that you hang in this fight is a true testament to your own 
courage. And we could never have gotten this far without you.
    So thanks again. It is great to see you.
    I support the bill. And I support the fact that it will 
send money to the right places, whether they are in my district 
or not.
    I would just point out, as all of us know, that ports, 
especially container ports, are especially vulnerable and so 
are certain airports. Some of those happen to be in and around 
my district, but that is not why I support the bill.
    If a rural area has a vulnerability, then it should get the 
money. It is not about my district and your district. It is 
about our country.
    And as I have pointed out a thousand times, the terrorists 
are not going to check our party registration or what district 
we represent before they blow us up. So we better get. And we 
better have risk-based, threat-based funding and strategies for 
the homeland.
    I just want to talk about one issue for a moment with our 
witness and that is interoperable communications. Obviously, 
sending more money to the right places will open up an 
opportunity to fund the hardware and software that goes into 
fixing a huge problem identified by the 9/11 Commission and 
that was the lack of interoperable communications, particularly 
in New York City.
    We needlessly lost many firefighters because they could not 
pick up the signals from the NYPD helicopters circling over the 
buildings that were glowing red and that the police people knew 
would fall down imminently. At any rate, money to first 
responders for this problem is part of the solution. The other 
part of the solution is dedicated analog frequency.
    And for years, Congressman Curt Weldon, a member of this 
committee and vice chairman of the Armed Services Committee and 
head of the Fire Caucus, and I have had a bill to keep 
Congress's promise to turn over, by the end of next year, 
dedicated analog frequency for emergency communications. The 
problem we have is that the broadcasters, who occupy only a 
small portion of that frequency, are pushing back. And so 
Congress does not act.
    I would just like to ask our witness whether he thinks this 
need is critical and for any suggestions he has to break the 
logjam.
    Mr. Hamilton. Yes, I think it is critical. It is one of the 
remaining recommendations of the 9/11 Commission. And this 
really was an easy recommendation to reach, that you have this 
interoperability.
    It is almost beyond belief, frankly, that when you have all 
of the fire people and all of the police people coming together 
at the scene of a disaster that they cannot communicate with 
one another. In this day and age, it boggles the mind. And, as 
I understand it, it is still the case in a lot of areas in the 
country.
    And it is a serious one. So we think it is urgent, again 
for the safety of the American people, that first responders be 
able to communicate with one another as they approach the scene 
of a disaster.
    Now I am not an expert on the radio spectrum. I know there 
are huge economic interests involved there. It is a very 
valuable piece of property. And how you work through all of 
this problem, I am not sure, Ms. Harmon, that I can be very 
helpful to you. But I think it is urgent that it be done.
    I do not see how you can walk away from the questions of 
homeland security and leave this problem unresolved. If you 
just think about the possibility of losing lives again because 
we cannot communicate with one another, it kind of boggles the 
mind.
    So I applaud what you said. And I appreciate what 
Congressman Weldon has done on this. And I surely hope that it 
can be worked through. And I know all the other commissioners 
feel the same way.
    Thank you for raising the question. It is an important one.
    Chairman Cox. The gentlelady's time is expired.
    The gentleman from Nevada, Mr. Gibbons?
    Mr. Gibbons. Thank you very much, Mr. Chairman.
    And, Mr. Hamilton, welcome again. It is great to see you, 
sir.
    Mr. Hamilton. Thank you.
    Mr. Gibbons. Mr. Chairman, before I begin my 5 minutes here 
or finish my 5 minutes, I do want to introduce some very 
special people that have attended this hearing with us in the 
audience. Mr. Jerry Bussell, in the back, has brought the 
University of Nevada at Las Vegas' Executive Master of Science 
first graduating class here, in Crisis and Emergency Management 
Program, which I think is important for them to hear what 
Congress is hearing with regard to homeland security.
    And it is great for them to have an opportunity to hear 
also Mr. Hamilton discuss this. So I just wanted, Mr. Chairman, 
to recognize their presence and welcome them as well to the 
hearing.
    Chairman Cox. The committee is very pleased to have our 
special guests today. And you are all here for a very 
consequential meeting of the Congress.
    Mr. Gibbons. Thank you.
    Mr. Hamilton, I know that as we look at the whole 
distribution formula, the current formula today is so difficult 
to understand that even members within the Homeland Security 
Department responsible for spreading the resources out based on 
a formula cannot figure it out. It is that difficult.
    And we are looking now to change that in this bill, of 
course. I guess my question is: if we look at this group, this 
panel that is responsible for establishing criteria, for 
example, of who is at risk here, what in addition to simply 
experience at risk assessment should these people have?
    For example, should there be a regional expertise? How do 
we keep politics, once again, from bubbling into this formula, 
bubbling into these decisions, where large cities, large 
communities--yes, indeed--may have great populations but low 
risk, still weigh in very heavily with the political clout that 
most large cities can?
    And the second question, if you would answer for me as 
well, is the number one defensive resource that we have in 
homeland security is good intelligence, prevention of the act 
before it ever takes place. How do we share intelligence down 
at the local street level?
    How do we get the firemen, the cop on the beat, that 
intelligence, which we have been struggling with for a long 
time, down to them? How can we break that barrier today?
    Those two questions, Mr. Hamilton, I would be very 
interested to hear your answers.
    Mr. Hamilton. I think, Mr. Gibbons, you raise two very good 
questions; very difficult to answer.
    With regard to the criteria question and the regional 
perspective that you raise, I do not think there is any 
substitute in homeland security for knowing intimately your own 
community and what its vulnerabilities are. In many ways, 
Washington cannot do that.
    You know how vulnerable your water supply is. You know how 
vulnerable your major plant is in your community. And you have 
to make these judgments at a local level, it seems to me.
    And part of that is--has to be--a regional consideration. 
You have so many communities in the United States today that 
cross state lines. Metropolitan centers cross state lines. And 
so regional cooperation becomes crucial, it seems to me and is 
very, very important.
    The question of sharing intelligence, of course, is at the 
heart of the reorganization of the intelligence communities. I 
really believe that Director Mueller and the homeland security 
folks under the new Secretary are focused very much on this 
question and they are trying to improve the quality of 
intelligence that flows up and down.
    In some areas, I think the problem has been hugely 
improved; and in others, probably not. But I think there has to 
be a constant effort at the Washington level to see that all of 
the best information we have and intelligence we have flows 
down to the first responders in the communities.
    So I am not pessimistic about that at all. I think it is 
underway. But we have a long way to go on it.
    And it is crucial because my experience is that these first 
responders in the local communities are desperate for 
information. And they really need that information in order to 
protect their community. So it is critical.
    I would hope that you--and I am sure you will--continue to 
press the FBI and the homeland security people on distributing 
information up and down the chain. It is very critical.
    Mr. Gibbons. Thanks very much.
    Chairman Cox. The gentleman's time is expired.
    The gentleman from North Carolina, Mr. Etheridge?
    Mr. Etheridge. Thank you, Mr. Chairman.
    Mr. Hamilton, let me join the chorus of those who are 
thanking you not only for your service as co-chairing this 
commission, but for your service to our country.
    And Mary Fetchet, you know, all you have to do is look at 
her background and find out she was a social worker and you 
understand why she has been so persistent and got the job done.
    Let me ask you a question because we are talking about 
allocation of resources and identifying vulnerabilities. But 
over the last several months, I have heard from a number of 
constituents, including local government officials, in this 
whole area. And I would like to hear your comment on it.
    Because they have called my attention to the fact that 
local 9/11 emergency networks are not considered a part of the 
first responder network. As a result of that, they have not 
been able to receive any funding.
    And the 9/11 Commission put a lot of emphasis on the 
importance of interoperability communication among first 
responders. So my question would be: how important is it to 
make sure this group is included in that category, even though 
there are limited funds?
    Because without that, even though that is locally funded 
currently, in some cases, if they do not get some additional 
funding, we may not have a center. And of course, 
interoperability is not there. I would appreciate your comments 
on that.
    Mr. Hamilton. Mr. Etheridge, you are a little bit beyond my 
area of expertise on this. We thought of interoperability 
largely in terms of the first responders.
    You are raising the question, I guess, of whether the 911--
    Mr. Etheridge. Well, really it is a 911--
    Mr. Hamilton. Oh, 911.
    Mr. Etheridge. Yes, and that is a part of that because that 
is the clearinghouse for all these interoperability pieces. 
That is where it goes through.
    Mr. Hamilton. That is right. And in most communities I am 
familiar with, in my state, they are now setting up those 
centers, run by the 911 groups. I do not see how you could 
expect those groups to respond to tragedy or a disaster in 
their communities unless they are linked into the communication 
process. It would be essential.
    Mr. Etheridge. I thank you because I happen to agree with 
you. And I think that is just an oversight. And I hope we can 
correct that.
    Thank you, Mr. Chairman. I will yield back.
    Chairman Cox. Thank you.
    We have a little bit of time left, but Mr. Pearce, you have 
the floor.
    Mr. Pearce. Mr. Hamilton, you have said that we know what 
terrorists want. If you look worldwide, what is the minimum 
number of casualties that have ever been in a terrorist attack?
    Mr. Hamilton. The minimum number?
    Mr. Pearce. Minimum. Yes, sir.
    Mr. Hamilton. I do not think I know that.
    Mr. Pearce. Okay, I do not either. But I think we could say 
five or six or eight.
    Mr. Hamilton. Yes.
    Mr. Pearce. So I think you are coming into the discussion 
with some assumptions that I worry about, frankly. And I 
appreciate your testimony. And I appreciate you trying to get 
your hands around this.
    But when I hear you say that we know what terrorists want, 
I think that we do not. I think I remember the United States 
setting up a TSA that began to check for box cutters until the 
shoe bomber came along and then we began to have people take 
off their shoes.
    I think the terrorists are going to be moving one step 
ahead of us. And that is critical because when we set up 
objective criteria, what happens is we base objective criteria 
frankly on our personal perceptions without much ability to 
assess the risk.
    Where this plays out then is in the assumption that rural 
areas somehow probably do not have as much objective criteria 
when, in fact, I think they do. For instance, we can try to 
ensure that New York City is not hit again and protect the tall 
buildings there, while ignoring the fact that along the Mexico 
border in my district, we have probably 200 miles of border 
with no fence.
    Now we have had reported instances of Al-Qa'ida coming 
across the border in those unprotected areas. And so while we 
objectively evaluate those high-risk areas or populous areas, 
we ignore the real potential to scoot out and give protection 
from even the people entering the country.
    And as I read your testimony, I do not really find hope 
that that objective criteria is actually going to do much more 
than measure population base. And that is going to concern me 
very much.
    I am also concerned on page three, I would ask if you noted 
in your study any misappropriation of funds by a populous area? 
I am sorry. It is not on page three. I am just asking you, in 
your work on the commission, did any populated areas misspend 
money?
    Mr. Hamilton. Mr. Pearce, I do not know the answer to that 
question. I presume they probably did.
    Mr. Pearce. I presume they have. And yet I find a 
prejudicial statement on page three that says, ``While major 
cities stretch their budgets to cope with the constant 
terrorism threats, sparsely populated counties have used their 
grants to purchase extravagant equipment.''
    Now if we are going to assess misappropriation of funds, we 
should also look both at populated counties and unpopulated. So 
to me, sitting here representing an area where we have, I 
think, 30 square miles to the individual, this appears to be 
one more effort to simply redirect funds under a different 
name.
    Not saying that we do not have concerns, but I do not think 
that we know what terrorists are going to do next. I think we 
are going to spend our money based on the last time.
    I think we are going to spend it in populated areas where 
we could potentially stop the threat out away from there. I 
think we are going to underestimate the ability of the rural 
areas to have value.
    And again, an anecdotal comment about that is that the 
Oklahoma City bomber was supposedly stopped by a first year 
sheriff's deputy somewhere in the Midlands.
    Mr. Shays. [Presiding.] I am just going to interrupt the 
gentleman just to say there are just 2 minutes left.
    Mr. Pearce. Yes. And he did not recognize what the sign was 
of a rental truck with fertilizer spilling out the back gate 
meant. And if we had simply trained these people out there, we 
might have interdicted.
    So those are my comments. And I appreciate it. We have to 
shut down and go vote, but thanks.
    Mr. Shays. And I thank the gentleman for his very pertinent 
comments.
    Mr. DeFazio has the floor for 5 minutes.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Good to see you again.
    Mr. Hamilton. Mr. Chairman, I do want to respond to that.
    Mr. DeFazio. Sure, you respond on his time.
    Mr. Shays. Let me just say, I wonder if we could make a 
deal? You need to leave at 12 o'clock and it is 5 minutes until 
12 o'clock. But if we go by the clock behind you, we have one-
half hour more with you.
    [Laughter.]
    But I am just giving his choice. Well, he just has to vote. 
The problem is you have a vote; 1 minute until they close the 
machine.
    Mr. Hamilton. I think we do know what the terrorists want 
to do strategically overall: they want to kill us. They want to 
attack the symbols of our power.
    We know that from the fatwas. We know that from the 
intercepts and all the rest. And that is what I meant when I 
said we know what to expect.
    You were referring, I think, more to tactics. And you are 
right about that.
    Mr. Pearce. Mr. Chairman, I would like to respond to that.
    Mr. Shays. The gentleman needs to use the microphone. You 
can use the microphone right there. You can just use any 
microphone.
    Take your time.
    Mr. Pearce. We uncovered at the same time we discovered the 
plot or the actual attacks is that there was one time when they 
were going to explode airliners over the ocean, 12 of them. Now 
their intent is to disrupt and to put fear.
    And I think when we begin to say that we can establish 
objective criteria to evaluate the highest risk level, I think 
that is trying to really box in a situation that cannot be 
boxed, frankly. And I appreciate what you are saying.
    Mr. Hamilton. Yeah, it is a judgment call. And you might 
very well determine, for example, that the largest threat is 
the people moving across that border. And that is where the 
homeland security funds ought to go if that is what the 
intelligence suggests.
    Mr. Shays. I just want to say that the chair will note the 
passion of the gentleman, giving that he was willing to miss 
this vote.
    At this time, Mr. DeFazio has the floor.
    Mr. DeFazio. Thank you, Mr. Chairman, again.
    Mr. Hamilton, always good to see you, Lee.
    I was going to follow somewhat on the same vein as Mr. 
Pearce. But first, just each state and city should have a 
minimum infrastructure for emergency response. That is in your 
testimony. And I would first go there.
    Interoperable communications, as Ms. Harman noted, were a 
critical missing factor in New York, but they are a critical 
missing factor all across America. I mean, we have all of our 
first responders, many of them incapable of communicating with 
one another, incapable of communicating with the state, the 
state incapable of communicating with the feds.
    They are all on different frequencies, different systems, 
different software. So how high of a priority do you put on a 
national system of secure, interoperable communication? I mean, 
would you say that is part of a minimum infrastructure?
    Mr. Hamilton. I think we looked at this business of 
interoperability more on the local than on the national level, 
the key being the fire and the police and so forth being able 
to respond locally. Now sometimes that is regionally, but we 
had not thought of it in terms of a national interoperability.
    I do not even know what the technical problems may be 
there.
    Mr. DeFazio. Well, you know, our emergency response network 
depends upon people basically in many places; public radio, 
sometimes private radio stations being the broadcast for 
emergency to local populace. Many of these stations because of 
mergers and buyouts do not have anybody there.
    We have not set up like an automated way federally even to 
interrupt and say, ``Okay, the federal government has the 
capability and we want to broadcast the message. We can just do 
it. Bounce it off a satellite, it goes down and it goes on to 
everybody's frequency.''
    There has to be somebody there to flip the switch. And a 
lot of times there is not someone there to flip the switch. 
That is one side of it.
    The other side is the first responders. You know, if my 
police and fire locally can communicate, but shouldn't we set 
some federal standards and the federal government participate 
so that everybody who is authorized can link in?
    It should not just be Eugene/Springfield; it should be 
Eugene, Springfield, maybe Salem, maybe Portland, maybe the 
whole state, state police. And then wouldn't it be nice if the 
feds could tie in with it?
    It seems to me that that is something that should be 
desirable. And it is something that is quite expensive. And 
this is where my rural counties and communities have put their 
requests.
    And we have enough money to fund, I think, one-twenty-sixth 
of one county's interoperable communications through the 
federal grant. And I would not say that that is a misspending 
of money.
    I cannot account for other places around the country where 
rural areas may have grants that were wasted. But we are 
spending it on something that I am trying to get money in the 
highway bill now to help with this because there is a way I can 
actually do that under the definition of the highway bill.
    But it is critical, I think, that kind of communication. 
And I would hope that you would be supporting that as part of a 
minimum infrastructure.
    Mr. Hamilton. Yeah, it is a very good point. We said that 
each community should have a minimum capability for emergency 
response. We did not recommend a specific percentage in the 
bill.
    Our overall view would be that establishing a minimum 
capacity should interfere as little as possible to the overall 
risk-based allocation. That would be our general principle. And 
we believe H.R. 1544 meets that standard.
    Mr. DeFazio. And I am a cosponsor, but I have some 
concerns. And I will continue to pursue them as we move the 
bill forward.
    But the thing would be, as Mr. Pearce said, these are 
people who are mutating, evolving. I have often referred to 
Project Bojinka, the 12 747s simultaneously only uncovered by 
mistake and stopped because a Filipino police sergeant caught 
the people.
    Our intelligence people did not have the slightest idea of 
what was going on. So I worry that there are things like that 
out there that we do not have much of an idea that they are 
planning.
    And I would suggest that 20 suicide bombers simultaneously 
in malls across America could be a pretty symbolic hit and not 
just going after the Statue of Liberty or the Washington 
Monument or Washington, DC or New York, but could suddenly cast 
fear in the entire populace. And they have a plan to go after 
our economy.
    We are unfortunately a consumer-based not a production-
based economy anymore. Something like that.
    I mean, I would hope that we do not get too inflexible in 
saying, ``The objective is to go after symbols of power,``--
Washington, DC, New York, maybe the Port of Los Angeles--and 
dump all our money in there.
    Mr. Shays. Give him a 5-second answer.
    Mr. Hamilton. What constitutes a threat at any given time 
will change. And it will evolve over time. And you simply have 
to keep up to date on what your current intelligence is with 
regard to these risks. And you are probably not going to get 
the kind of intelligence that says, ``We are going to strike 
the World Trade Towers at 9:00 in the morning on Tuesday.''
    So I am not differing with you here, I do not believe. I 
can understand the points that you have made. But the 
allocation, except for the minimum capability, should be made 
on our best judgment as to what the risk is.
    Mr. Shays. Mr. Hamilton, we have three members who have 
stayed. If we gave them about 3.5 minutes each, do you think 
you could help answer each of them? Mr. Lungren is next.
    Mr. Hamilton. Absolutely.
    Mr. Lungren. Thank you, Mr. Chairman.
    And Lee, I very much appreciate your work and your 
dedication. But particularly, I appreciate the succinctness and 
directness of your statement here today.
    You understand this place very well. And you understand the 
difficulties we have, the further we get away from 9/11, to 
continuing to focus on the threat and getting away from, some 
would call it pork-barreling, but others would just call it 
population-based funding.
    To that end, one of the ways that we can make sure that we 
not confuse homeland security funds with, let's say, FEMA funds 
or funds that go for natural disasters is to essentially 
articulate the unique nature of our homeland security threat, 
the terrorism threat. Could you articulate how, in the 9/11 
Commission, the findings you made and the conclusions you 
reached, would show this to be a unique threat requiring a 
unique response?
    Mr. Hamilton. Well, Mr. Lungren, it is a unique threat in 
the sense that the country has not faced anything like it 
before. And while our knowledge is not perfect about the intent 
or the capabilities of the terrorists, it is better than most 
people may think.
    And we have a very clear idea of what they want to try to 
do, it seems to me. We interviewed over 1,500 people in the 
process of putting together the report.
    We asked every one of them about the terrorist threat, all 
of the experts on it. And without exception, they said that 
another terrorist strike would come in this country.
    I do not think any of them said they did not expect another 
terrorist attack. If you talk to the people who are experts in 
national security in this country, I think without exception, 
they would say that the number one national security threat to 
the United States is terrorism.
    And so major efforts of our government must be--the 
national security part of the government--must be directed 
towards preventing those attacks if we possibly can. We do not 
think there is reason for complacence.
    We have now gone more than 3.5 years since 9/11. We have 
been very fortunate. We have not had an attack on American 
soil.
    And many people draw the conclusion there from that this 
threat is diminishing. The commission did not share that. And I 
do not know that national security experts--any of them--would 
share the view that an attack is less likely.
    Mr. Lungren. I thank you for that. The reason I bring it up 
and ask for your emphasis is because the only way we are going 
to ensure that we have risk-based funding, risk-based strategy, 
is if we understand what the threat is.
    And if we do not do that, we will devolve into business as 
usual. And I know that is not what you want. It is certainly 
not what the country can afford.
    Mr. Hamilton. I should probably point out that if you look 
at the time since 9/11, there have been more terrorist attacks 
around the world than in a comparable period to 9/11. We were 
fortunate none of those have occurred here.
    Mr. Shays. The gentleman's time has expired.
    Mr. Pascrell? We are only going to be able to get to Mr. 
Simmons on this round.
    Mr. Pascrell. Thank you for your service, Mr. Hamilton. And 
the 9/11 Commission Report will go down in history, I think.
    Secretary Chertoff said yesterday that there are no 
guarantees in what we are doing. So what we want to do is 
minimize the vulnerabilities. And I think you laid it out very 
clearly in the 9/11 Report.
    I want to go to one issue that has not been touched upon 
today and that is the issue of personnel and staffing. What 
extent do you view, from what you have learned and the 
witnesses that you have talked to, staffing shortages in first 
responder disciplines as an impediment to security?
    And it is not less true for being a clich at this point, 
but year after year, what we are hearing is that two-thirds of 
all career--in volunteer fire departments, for instance--do not 
have sufficient personnel. I think this probably troubles you. 
And do you think that this is worthy of a subject that you can 
respond to this morning or this afternoon?
    Mr. Hamilton. Well, I think it is a fundamental point that 
you raise. There is just no question about it. It does not 
matter how much money you have. It does not matter how well the 
organization is put together.
    If you do not have good people, it is not going to work. 
And those people in the first responder cases have to be highly 
trained.
    I have asked myself a thousand times, we heard all of this 
testimony about these firemen charging into these World Trade 
Towers on 9/11. And they went right up the stairs, a building 
that was aflame.
    I have asked myself a thousand times whether I personally 
would have had the courage to do that. I think the answer is I 
would not.
    Why did they do it? They did it because they were highly 
trained. They were trained to do that. And they saved a lot of 
lives in the process.
    Training can overcome fear. And it did in this instance. So 
you cannot substitute for highly trained personnel in the first 
responder area--police and fire, as well as medical.
    Mr. Pascrell. Thank you. And I know we have one more.
    Mr. Shays. That is nice because maybe Mr. Dent could get a 
minute question in too. But Mr. Simmons has the floor now.
    Mr. Simmons. Thank you, Mr. Chairman.
    And thank you, Mr. Hamilton, for your service and for being 
here today.
    I have an intelligence question. You have mentioned 
intelligence quite a bit. I know you have a tremendous 
background and experience in intelligence.
    When we talk intelligence, we tend to think about the 
intentions and capabilities of our opponents and what can we do 
to judge those intentions and capabilities and to thwart them? 
But in the area of homeland security, we have a whole new area 
for intelligence, which goes to the issue of assessing 
vulnerability and the consequences of attack.
    Let me give you an example. The chicken farms in my 
district in Connecticut are highly vulnerable to terrorist 
attack, but the consequences of attacking a chicken farm are 
probably relatively low, except perhaps for the chickens.
    By the same token, water supplies have high 
vulnerabilities, but the consequences of poisoning a water 
supply is also very high. And as the Department of Homeland 
Security moves forward to assess the infrastructure of this 
country, it seems to me that that lends itself to open-source 
acquisition and analysis; in other words, it lends itself to 
open-source intelligence.
    Perhaps more than any other organization or agency in our 
government, the Department of Homeland Security has a 
responsibility for infrastructure protection. They have an 
intelligence capability. But a lot of what they are doing is 
assessing vulnerability and consequences.
    Now your 9/11 Commission report called for an open-source 
capability. And the recent Robb Report did the same.
    Would you respond to that statement?
    Mr. Hamilton. You have had a lot of experience too in the 
intelligence area. Your comments, I think, are quite 
insightful.
    There is a tendency, as you know, in the intelligence 
community and outside the intelligence community, to think that 
it is very secret stuff and that you deal with spies and fancy 
technology that gives you all this kind of information nobody 
else has. All of those things are important, you and I would 
agree.
    But an enormous amount of information is available openly. 
And we have to improve our capabilities to use open sources.
    If you look back on 9/11, you cannot help but think to 
yourself, ``Why didn't I see it coming?'' We all knew about the 
bombings in East Africa. We all knew about the Acropolis. We 
know about the intelligence. We knew about the USS Cole.
    And you just go on and on and you say to yourself, ``How in 
the world did we miss it?'' All open sources. It is not a 
question of President Bush or President Clinton having 
information that nobody else knew.
    All of us knew, from open sources, of the terrorist threat. 
We just did not get it.
    So open sources become terribly important. And the 
intelligence community, I think, tends to--you would know 
better than I--but I think they tend to kind of overlook open 
sources a lot.
    They say, ``Well, I have the technology and stuff and I 
have the spies, the information from the spies. So therefore, 
the open sources are not all that important.'' It is. It is 
terribly important.
    Mr. Shays. The gentleman's time is expired.
    Mr. Hamilton. And your point about assessment of locality 
possessing and the consequences in localities is just critical.
    Mr. Shays. We are going to get you out of here with just 
Mr. Dent with a minute or two.
    Mr. Hamilton. Thank you.
    Mr. Shays. Thank you.
    Mr. Hamilton. I appreciate your consideration.
    Mr. Shays. We appreciate your consideration.
    Mr. Dent?
    Is your microphone on, sir?
    Mr. Dent. I guess it is now.
    First, thank you again for your service to our country on 
this commission, Mr. Hamilton. It is extraordinary. And 
appreciate the work you did, particularly with respect to Need 
to Know and Need to Share, information sharing; all that in the 
9/11 report was extraordinary. And I appreciate your support of 
this legislation we are considering, H.R. 1544.
    If we do everything right on this committee--and we have a 
lot we can all be very proud. But one issue that I am concerned 
about and it is something that I would ask your guidance on is 
the issue of Nunn-Lugar.
    We know that there is unsecured nuclear material in the 
former Soviet Union. What can this committee do to help advance 
that process of securing that type of nuclear material?
    It is clear to me that our nightmare scenario is a nuclear 
device that is detonated in one of our major metropolitan 
areas. And that is preventable if we secure that nuclear 
material.
    This committee does not have jurisdiction over Nunn-Lugar 
or a lot of the activities that go on in Pakistan or in the 
former Soviet Union. What can we do though to help keep the 
pressure on to secure that material?
    Mr. Hamilton. I think you just have to recognize the 
importance of the Cooperative Threat Reduction Program or Nunn-
Lugar and understand that, in my view at least, there are very, 
very few dollars spent in national security that have a bigger 
payoff than trying to locate and secure these materials.
    And the threat is great today and it will probably get 
greater as the technology spreads and as the information 
spreads. Your committee does not have jurisdiction. But every 
one of you know the members of the committees that do have 
jurisdiction.
    And you have an opportunity to speak to this point many 
times. I am very pleased that you brought that up. This was an 
area too where the commission easily reached agreement.
    You probably get the biggest bang for your buck in national 
security by increasing funding for Nunn-Lugar and the 
Cooperative Threat Reduction Program. I do want to say, 
however, that it is not just a question of funding. There are 
some really difficult problems here.
    I worked with Senator Baker on another commission that 
looked specifically at the former Soviet Union on this matter. 
Personnel staffing is a huge problem here, getting people to go 
into these areas, work in the Russian language or whatever for 
years and years at a time.
    And there is another problem that is a difficult one and 
that is that the Russians always raise with us the question of 
reciprocity. In other words, we say to them, ``Okay, we want to 
come in there and look at your nuclear facilities.''
    And they say to us, ``Okay, we would like to look at your 
nuclear facilities.'' Well, we have some questions about that. 
And the question of reciprocity is the big one.
    So there are a lot of problems here other than money. But 
your point is very well taken.
    I think it is a program that needs much, much heavier 
emphasis. And I would let you know that the commission, all of 
us, would be strongly supportive of efforts to strengthen that 
program.
    Mr. Shays. I thank the gentleman.
    Mr. Hamilton, all the committee thanks you for your good 
work. And I know you will be back often because we need your 
advice.
    Mr. Hamilton. May I also say that I too have the highest 
regard for Mary Fetchet? She is going to succeed me here at the 
microphone in a few minutes. She was tremendously helpful, as 
were many of her colleagues, in the work of the commission and 
has been an extremely dedicated person.
    Mr. Shays. She has been. And we just have to make sure that 
she does not get carried away with all this praise, which was 
all very justified.
    We will adjourn because we want the full committee to hear 
the next--excuse me, recess. Excuse me. The power of the gavel. 
We will recess.
    Thank you, Mr. Hamilton.
    We are going to recess so that the next panel will be able 
to speak to the chairman and the other members. We expect votes 
fairly shortly, is what they think. And there will be two 
votes, so we cannot kind of keep running.
    So with that, we are in recess.
    [Recess.]
    Chairman Cox. [Presiding.] The Committee on Homeland 
Security will come to order. I want now to welcome Ms. Mary 
Fetchet, founding director of Voice of September 11. We will 
introduce in turn our remaining witnesses.
    Ms. Fetchet, you are recognized for purposes of summarizing 
your written statement. Thanks for being with us.

                   STATEMENT OF MARY FETCHET

    Ms. Fetchet. Mr. Chairman and Ranking Member Thompson, I am 
honored to testify before the House Committee on Homeland 
Security today. Thank you for the opportunity to discuss my 
perspectives on first responder grant reform legislation.
    My name is Mary Fetchet. I am founding director of Voices 
of September 11, a 9/11 family advocacy group providing 
resources to those impacted by the events of September 11.
    We supported the creation of the 9/11 Commission and 
legislation based on the 9/11 Commission recommendations. I 
want to express my deep gratitude to Governor Kean and Mr. Lee 
Hamilton for their leadership in producing a comprehensive 
report and support their goals for the 9/11 public policy 
reform and preparedness.
    My 24-year-old son, Brad, died on September 11. And I would 
like to share Brad's photograph with you to put a face--a human 
face--on one of the nearly 3,000 sons and daughters who 
perished on 9/11.
    On September 11, 2001, I was not aware that there was a 
threat of terrorism. And I certainly did not know that my young 
son's life was at risk just by virtue of the fact that he 
worked in New York City.
    I assumed our government was taking the steps necessary to 
protect us all. I assumed that our first responders would be 
prepared for any emergency.
    Like so many Americans, I was living with a false sense of 
security. Brad worked on the 89th floor in tower 2 of the World 
Trade Center. On 9/11, Brad was directed not to evacuate, but 
to remain in his office after Tower 1 was hit.
    Firefighters were sent into the buildings with equipment 
that did not work and still may not work today. They could not 
communicate.
    The consequence of these communication failures and lack of 
preparedness resulted in 600 to 700 deaths in Tower 2. From 
that day on, Mr. Chairman, I felt it was my moral obligation to 
do everything I could to ensure that our government was taking 
all possible steps to protect our country.
    I consider this my life's work.
    Just 2 weeks ago, I was notified of my son's remains for 
the fifth time, almost 4 years after his death. I will spare 
you the horrific details.
    Many families share this same experience. And nearly 1,600 
families have had no notification. Their loved ones simply 
vanished.
    I feel it is important to share this very personal 
experience with you to provide some insight into the challenges 
our families face and impress upon each of you the importance 
of your efforts to protect our country. The loss of life on 9/
11 is a consequence of a complacent government. We can no 
longer escape the reality that the lives of Americans are at 
risk today, especially in high-risk areas.
    Although the sweeping intelligence reforms signed into law 
by President Bush in mid-December 2004 are significant, they 
are only the beginning. One of the critically important issues 
that remains to be addressed is how homeland security funds are 
allocated to provide national security and preparedness.
    Mr. Chairman, regrettably, Congress traditionally allocates 
money to advance the interests of members' home states or 
districts. As the 9/11 Commission wisely told us, ``Homeland 
security assistance should be based strictly on assessment of 
risk and vulnerability. This issue is too important for 
politics as usual to prevail.''
    We do not have unlimited resources and cannot afford to 
squander anti-terrorism monies. Earmarking, pork-barrel 
spending, working the system, lobbying--these are all 
unacceptable ways of allocating homeland security funds.
    First responders in high-risk situations must be prepared. 
It would be tragic if those who are putting their lives on the 
line for us did not have the necessary equipment because 
Congress misspent funds as pork-barrel politics.
    High-risk areas must be identified and be a priority. We 
have learned much about how terrorists work. They want to 
attack high-impact targets that will cause mass casualties.
    They would like to destroy the nation's critical 
infrastructure, our nuclear, chemical and power facilities, our 
transportation and telecommunications centers, our food and 
water supplies. But not all targets and locations are as likely 
to be attacked.
    We know, for instance, that high-rise buildings in cities 
are a vulnerable target. They are difficult to defend and 
difficult to evacuate. It takes more money to protect them and 
more resources to be prepared to respond. And the sheer number 
of people coming and going make it harder to stop terrorists.
    Cities are at higher risk. We need to protect those targets 
that are at most risk. And more funds must be allocated for 
their defense and first responders.
    A pure assessment of risk must be guided by our homeland 
security decisionmaking. In this regard, I wholeheartedly 
support the 9/11 Commission recommendation to establish an 
independent panel of security experts to develop written 
benchmarks for evaluating community needs.
    Such a board would be able to prioritize threats and make 
independent judgments untainted by politics. They could render 
their best advice to the Secretary of Homeland Security and to 
Congress.
    Mr. Chairman, forgive me for my directness here. But our 
country's safety is at risk. And it is my responsibility to 
speak with utter candor and honesty.
    To allocate funds in any other way than based on risk 
assessment would be to squander national treasure. If we do not 
do this right, there will be inexcusable imbalances in our 
homeland security. How could this ever be justified in the 
event of a future attack?
    I am heartened by recent public statements of Secretary 
Chertoff, who emphasized that the Department of Homeland 
Security will follow a risk-based approach in its policies and 
decisionmaking. That same approach must guide the allocation of 
funds.
    Tragically, on 9/11, my son Brad received bad information 
that caused him to remain in the World Trade Center tower while 
it was under attack. We can never make such mistakes again. And 
we can never allow another 9/11 to happen again.
    I think of my 24-year-old son, Wes, who, just as his 
brother Brad did, lives and works in New York City. Today, I am 
concerned about his safety. We owe them our best thinking and 
our best efforts to implement the measures that will keep our 
families safe.
    Once again, my deepest thanks to you, Mr. Chairman, and 
your committee colleagues, for holding this important hearing 
and for your leadership in protecting our country. I pledge my 
energy to cooperate with you and the government. And I want you 
to know that Voices of September 11 stands ready to assist in 
any way we can.
    I now look forward to responding to your questions.
    [The statement of Ms. Fetchet follows:]

                 Prepared Statement of Mary A. Fetchet

    Mr. Chairman and Ranking Member Thompson, I am honored to testify 
before the House Committee on Homeland Security today. Thank you for 
the opportunity to discuss my perspectives on First Responder grant 
reform legislation. On September 11, 2001, my 24-year old son, Brad, 
died in the World Trade Center with the sons and daughters of nearly 
3,000 other mothers. From that day on, Mr. Chairman, I felt it was my 
moral obligation to do everything I could to ensure that our government 
is taking all possible steps to protect our country. I consider this my 
life's work.
    Shortly after my son's death, I co-founded Voices of September 
11th. Voices began informally in my home in October, 2001. We held 
weekly meetings in which family members of the victims of 9/11 shared 
pertinent information. In a time of great grief and unimaginable trauma 
that support meant so much to those who had lost loved ones.
    Today, Voices has grown into a multi-faceted organization that both 
here and abroad provides resources and support to more than 4,000 
families, survivors, and others impacted by the events of September 
11th. We advocate strongly for the implementation of the 9/11 
Commission's recommendations; and we urge federal, state, and local 
authorities, and the private sector to join together to plan for how 
best to be prepared for, and respond to, possible future attacks. 
Through our ``Building Bridges'' program we are fostering better 
relationships internationally.
    I think of my life in 2 chapters--before September 11th and after 
September 11th. When I reflect on the past 3 years, I'm shocked by how 
dramatically my life has changed since my son's death. Before September 
11th I worked as a clinical social worker, and like most mothers, I was 
focused on the everyday needs of my family. I had no interest in 
politics and paid little attention to the political system. At that 
time I didn't know that there was a threat of terrorism, and I 
certainly didn't know that my young son's life was at risk just by 
virtue of the fact that he worked in New York City. I assumed that, 
with respect to the defense of this country, the government was taking 
the steps necessary to protect all of us.
    After September 11th, I learned that I, like so many other 9/11 
family members, indeed like many other Americans, had been living with 
a false sense of security, and that my assumptions had been mistaken. I 
was thrust into the political arena and forced to understand complex 
issues and navigate several complicated bureaucracies. Much to my 
surprise, through my involvement I have become educated on intelligence 
reform, preparedness and other homeland security issues, and on 
navigating the political system.
    Along with other family members and many legislators I advocated 
for the creation of the 9/11 Commission. The 9/11 Commission Report was 
published late last July after the tireless efforts of the Commission 
and its staff. Among its many important findings we learned that the 
attacks on September 11th were a result of systemic government failure. 
Those failures are by now well documented and I do not wish to dwell on 
them here. Now we must move beyond the problems of the past and focus 
on defense, prevention, and preparedness.
    Following the publication of The 9/11 Commission Report, we joined 
a bi-partisan effort of Congressmen, Senators and the 9/11 
Commissioners to push for legislation based on the Commission's 
recommendations. The sweeping intelligence reforms that the President 
signed into law in mid-December, 2004 are significant, but they are 
only the beginning, there is much more left to do.
    One of the critically important issues that remains to be addressed 
is how Homeland Security funds are allocated in order to provide us the 
best possible protection. Mr. Chairman, regrettably, Congress has 
traditionally allocated money to advance the interests of Members home 
states or districts. The way in which homeland security funding is 
allocated must break with this prevailing practice. As the 9/11 
Commission wisely told us: ``This issue is too important for politics 
as usual to prevail.''
    The intense pressure on Senators and Congressman to bring home 
federal money is pervasive and hard to resist, but it must be avoided. 
Each and every town, city, county and state honestly believes that its 
own project or concern is valuable and pressing and demands immediate 
federal funding. I do not question the sincerity of such concerns, but 
we must insist on common sense.
    Politicians are intelligent, capable individuals. But even if every 
single one agreed not to use Homeland Security money to fund 
unnecessary projects in their state or district, politicians are busy. 
They are in meetings, committee hearings, reviewing votes on hundreds 
of issues and running campaigns, among other things. There must be an 
infrastructure in place to allocate funds which transcends politics 
entirely.
    Earmarking, pork barrel spending, working the system, lobbying--
these are unacceptable ways of allocating Homeland Security funds. 
Having money allocated to First Responders impeded by unnecessary 
regulations or paperwork, by politics, or by any typical bureaucratic 
obstacle is simply unacceptable.
    If we ask our first responders in high risk situations or high risk 
geographic areas to function within a bureaucratic system based on 
political maneuvering or arbitrary means, then we have already failed. 
It is that simple.
    We have learned much about Al-Qa'ida and Islamist extremists and 
what they want to target to spread terror: they want to cause mass 
casualties; they want to strike centers of national economic and 
political power; they would take delight in attacking targets of high 
national symbolic value; and of course they would like to destroy the 
nation's critical infrastructure--our nuclear, chemical, and power 
facilities, our transportation and telecommunications centers, our food 
and water supplies. Thus, not all targets and locations are as likely 
to be attacked.
    We know, for instance, that high rise buildings in cities are a 
vulnerable target. They are difficult to defend and difficult to 
evacuate. It takes more money to protect them and more resources to be 
prepared to respond. And the sheer number of people coming and going 
make it harder to stop terrorists. Cities are at higher risk and should 
have more funds allocated to their defense and first responders.
    We need to use brain power and common sense here. We need to 
protect those targets that are most at risk.
    A pure assessment of risk must guide our homeland security decision 
making. We must strive for the greatest possible objectivity in 
determining where we need to dedicate our limited resources to prevent, 
respond, and recover from an attack.
    In this regard, I wholeheartedly support the 9/11 Commission 
recommendation to establish an independent panel of security experts to 
develop written benchmarks for evaluating community needs.'' (The 9/11 
Commission Report, p. 396.) Such a board would be able to 
``prioritize'' threats and make independent judgments untainted by 
politics. They could render their best advice to the Secretary of 
Homeland Security and to Congress.
    Mr. Chairman, forgive me for my directness here, but our country's 
safety is at stake, and it is my responsibility to speak with utter 
candor and honesty. To allocate funds in any way other than based on 
risk-assessment, would be to squander national treasure. Our leadership 
will be negligent if it does not set priorities and make decisions 
based on where the greatest risks lie.
    If we do not do this right, there will be inexcusable imbalances in 
our homeland security: places will be protected that are not at risk, 
less money will be available for those places that are at high risk, 
and our financial reserves will be depleted. How could this ever be 
justified in the event of a future attack?
    We must do everything in our power to prevent a future attack. If 
we fail, then we must be prepared to respond. There can be no 
compromise on these points. Politics as usual--on this issue--is simply 
not acceptable. The American people will not stand for it.
    Establishing the 9/11 Commission was a difficult challenge. Against 
great odds it produced a document that is unique in America's history. 
I have read the Commission's report and re-read it. There is so much 
wisdom in it. Speaking on behalf of Voices of September 11th, I want to 
express my deep gratitude to Governor Tom Kean and Mr. Lee Hamilton, 
the Chairman and Vice Chair of the Commission. I would also like to 
thank the Commission's remarkable staff for their accomplishments and 
dedication. Their ongoing participation in educating the public and 
continuing the national dialogue on the way ahead is vital.
    We would do well to heed the Commission's recommendations on so 
many issues of 9/11. In particular, we must follow their advice on how 
to allocate funds to protect our country.
    It is the solemn obligation of Congress and the administration, 
indeed it is the fundamental purpose of government, to protect its 
people. On this specific issue, as on so many others, the Commission 
has clearly shown us the way. Congress should implement that sound 
advice. I am deeply heartened by recent public statements of Secretary 
Chertoff who emphasized that the Department of Homeland Security will 
follow a risk-based approach in its policies and decision making. That 
same approach must guide the allocation of funds.
    As the threat evolves, we must evolve too. We must learn to work 
cooperatively rather than competitively. We must learn to work on a bi-
partisan basis rather than as two opposing parties. And we must apply 
funds based on ``need'' and ``risk'' rather than on narrow interests, 
political alliances, and deal-making.
    On 9/11, my son Brad received bad information that caused him to 
remain in a World Trade Center Tower while it was under attack. This 
needlessly led to his death and the death of 600 others in that 
building.
    We can never make such mistakes again; and we can never allow 
another 9/11 happen again. I think of my 24-year old son, Wes, who, 
just as his brother Brad did, lives and works in New York City. We must 
ensure that all our children who live in cities that are likely to be 
targets are protected from terrorist attacks. We owe them our very best 
thinking and our very best efforts to implement the measures that will 
keep them and all of us safe. This must include establishing and 
adhering to a system that makes the best possible choices about what 
most needs to be defended.
    Once again, my deepest thanks to you Mr. Chairman and your 
Committee colleagues for holding this important hearing and for your 
leadership in protecting the country. I pledge my energy to cooperate 
with you and the government and I want you to know that Voices of 
September 11th stands ready to assist in any way we can. I now look 
forward to responding to your questions.

    Chairman Cox. Thank you very much for your extraordinary 
testimony and for all the work that you have done to bring us 
to this point.
    Members will of course have questions after we complete the 
testimony of all of our witnesses. And it is my privilege next 
to introduce Inspector Louis P. Cannon, who is testifying on 
behalf of the National Fraternal Order of Police and is the 
chairman of the National Federal Officers Coalition.
    Welcome.

                  STATEMENT OF LOUIS P. CANNON

    Mr. Cannon. Good afternoon, Mr. Chairman, Ranking Member 
Thompson, distinguished members of the House committee and, of 
course, my good friend, Ms. Norton.
    My name is Lou Cannon. I am a 32-year law enforcement 
veteran, currently serving as an inspector with the United 
States Metropolitan Police and I am also the elected president 
of the District of Columbia Lodge 1, which represents more than 
9,500 law enforcement officers throughout the greater 
Washington, DC metropolitan area.
    Nationally, the FOP is the largest law enforcement labor 
organization representing more than 318,000 rank and file law 
enforcement officers in every region of the country. I am here 
this afternoon at the request of Chuck Canterbury, national 
president of the FOP, to testify in support of H.R. 1544, the 
Faster and Smarter Funding for First Responders Act.
    Three-and-a-half years have passed since the terrorist 
attacks on New York and Northern Virginia. In this time, it has 
become clear that the current system of distributing federal 
homeland security grants needs to be reformed.
    State and local officials, former Secretary Ridge and the 
9/11 Commission have all testified that the grant distribution 
system needs fixing. In the previous Congress, the FOP worked 
in conjunction with both the majority and minority staff of the 
House Committee on Homeland Security to address this need for 
reform.
    When all was said and done, the final product was a piece 
of consensus legislation that had earned broad, bipartisan 
support in Congress and cross-discipline support from the first 
responder community. It passed the House of Representatives in 
October of last year as part of H.R. 10, the 9/11 
Recommendations Implementation Act. And with few exceptions, 
H.R. 1544 as introduced is identical to the language included 
in the House passed H.R. 10.
    The bill requires the Department of Homeland Security to 
allocate homeland security assistance funds to states or 
regions based upon risk. Under the current system, none of the 
funds available under the homeland security grant program are 
allocated on the basis of risk.
    Instead, each state receives a base amount of .75 percent 
of the total available funds and then an additional amount 
based solely on population. Clearly, this method is not the 
most effective way to distribute federal resources to increase 
our homeland security.
    The Cox-Thompson Bill would lower the guaranteed amount of 
federal funding that each state receives under the SHSGP to .25 
percent and eliminate the practice of distributing additional 
funds on the basis of population. Instead, the bill would 
require the department to allocate all available SHSGP funds on 
the basis of risk, with a subsequent adjustment for states 
whose risk does not equal the .25 percent guaranteed amounts.
    This would result in approximately 99 percent of the money 
being allocated on a strictly risk-based assessment of need, 
not an arbitrary formula, as is the current practice. In our 
view, the legislation appropriately distributes homeland 
security assistance on the basis of risk. And it is also 
consistent with the recommendations of the 9/11 Commission, 
which stated that, ``homeland security assistance should be 
based strictly on an assessment of risks and vulnerabilities.''
    The administration has already taken the bill's approach in 
several ways. For example, the basic funding formula was 
adopted in the most recent budget request and in accordance 
with HSPD-8. The Department of Homeland Security recently 
issued the Interim National Preparedness Goals, establishing 
readiness priorities, targets and metrics.
    The FOP believes that the department's efforts to identify 
national preparedness priorities and baseline capability levels 
accomplishes the purposes outlined in Section 1803 regarding 
essential capabilities. And we recommend that the bill be 
amended to reflect the work already done by the DHS.
    One of the essential capabilities defined by the 
legislation is the levels, availability and competence of 
emergency personnel. Given the budgetary constraints at all 
levels of government maintaining the appropriate police 
staffing levels is a nationwide concern.
    In addition to their traditional duties, law enforcement 
must now shoulder additional responsibilities with respect to 
homeland security. And I am aware of a number of local 
departments, both federal and municipal, whose physical 
difficulties have resulted in loss of officers. This means we 
must do more with less, which certainly affects our 
preparedness to some communities.
    As this committee well knows, one of the most important 
activities of all of our nation's homeland security efforts is 
the prevention of any future terrorist attacks, a 
responsibility that falls almost exclusively on law 
enforcement. I would ask that the committee give appropriate 
consideration to this issue in its oversight activities and 
when considering the legislation or other issues which impact 
readiness at the local level.
    The 9/11 Commission also recommended that a panel of 
security experts be convened to develop written benchmarks for 
evaluating community needs. Section 1804 of H.R. 1544 would 
establish a 25-member task force on essential capabilities for 
first responders to help assess grant applications and work to 
ensure that different types of communities have access to the 
federal resources they require to address their unique needs.
    The task force must include representation from the law 
enforcement community, which I believe is particularly 
important as the views of law enforcement seem to be 
underrepresented in the planning stages on how to deploy 
federal resources for homeland security purposes. Because all 
levels of government are working in a universe of limited 
resources, we need to prioritize how we spend those resources 
we do have.
    Risk prioritization, honest assessments about how to reduce 
our vulnerabilities to terrorist attacks, must be the guide by 
which we allocate federal assistance to state and local levels. 
And this goal is achieved by H.R. 1544.
    The FOP is proud to support the measure. And we look 
forward to working with both of you as this bill moves through 
the legislative process.
    I would like to thank you, Mr. Chairman, Ranking Member and 
all members of the committee. I will be happy to answer 
questions at the appropriate time.
    [The statement of Mr. Cannon follows:]

            Prepared Statement of Inspector Louis P. Cannon

    Good morning, Mr. Chairman, Ranking Member Thompson, and 
distinguished Members of the House Committee on Homeland Security. My 
name is Lou Cannon, and I am a 32-year law enforcement veteran 
currently serving as an Inspector with the United States Mint Police. I 
am also the elected President of District of Columbia Lodge #1, which 
represents more than 9,500 law enforcement officers throughout the 
greater Washington, D.C. metropolitan area. Nationally, the F.O.P. is 
the largest law enforcement labor organization, representing more than 
318,000 rank-and-file law enforcement officers in every region of the 
country.
    I am here this morning at the request of Chuck Canterbury, National 
President of the F.O.P., to testify in support of the Cox-Thompson 
``Faster and Smarter Funding for First Responders Act.''
    In the previous Congress, the F.O.P. worked in conjunction with the 
House Select Committee on Homeland Security to pass this important 
legislation. The bill, then H.R. 3266, was favorably reported by a 
unanimous vote of this Committee in March 2004, and, in October of last 
year, the House of Representatives adopted the legislation as part of 
Title V, H.R. 10, the ``9/11 Recommendations Implementations Act.'' The 
language included in H.R. 10 was a consensus document in every sense of 
the word and earned the support of numerous Committee Chairmen and 
Ranking Members who had jurisdiction over individual parts of the bill. 
It is the product of countless hours of work on the part of 
Congressional staff and reflects substantive input from organizations 
like the Fraternal Order of Police and others in the first responder 
community. The ``Faster and Smarter Funding for First Responders Act'' 
also met the spirit and intent of the recommendations posited by the 9/
11 Commission concerning the delivery of Federal homeland security 
assistance to State and local governments. Further, the basic funding 
formula principles of the legislation as passed by the House last year, 
with a few minor exceptions, have already been adopted in the 
Administration's fiscal year 2006 budget request.
    The legislation that you and Representative Thompson have 
introduced this week, and which is the subject of our hearing today, is 
nearly identical to the consensus language contained in last year's 
H.R. 10. Every Member of the Homeland Security Committee is an original 
cosponsor of this bill, and the Fraternal Order of Police is proud to 
once again offer our strong support for this bill.
    Essentially, the legislation requires the Department of Homeland 
Security (DHS) to allocate homeland security assistance funds to States 
or regions based upon the degree to which they would lessen the threat 
to, vulnerability of, and consequences for persons and critical 
infrastructure. The bill also reduces the current State minimum and 
restructures the allocation process. Under the current system, none of 
the funds available under the State Homeland Security Grant Program 
(SHSGP) are allocated on the basis of risk. Instead, each State first 
receives a base amount equal to 0.75 percent of the total allocation, 
and then an additional amount based solely on population. Clearly, this 
is not the most effective way to distribute Federal resources to 
increase our homeland security.
    The ``Faster and Smarter Funding for First Responders Act'' 
proposes to reform the current formula and require DHS to allocate all 
funds based on risk, and then provide, if necessary, additional funds 
to those States, territories, or certain Indian tribes that have not 
met a minimum threshold of funding.
    The Cox-Thompson bill would accomplish this by lowering the 
guaranteed amount of Federal funding that each State receives under the 
SHSGP from 0.75 percent to 0.25 percent and eliminate the secondary 
distribution of these funds on the basis of population. Instead, it 
would require the Department to allocate all available SHSGP funds on 
the basis of risk and needs, with a subsequent adjustment for States 
whose risk does not equal the 0.25 percent guaranteed amount. This 
would result in approximately ninety-nine percent (99 percent) of the 
money being allocated on a strictly risk-based assessment of need, not 
an arbitrary formula.
    In our view, this legislation appropriately distributes homeland 
security assistance on the basis of risk, while ensuring that no State, 
territory, or directly eligible tribe will fall below a certain base 
level of funding, that being .25 percent of the total available funds. 
The F.O.P. believes that this new grant formula is consistent with the 
recommendation of the 9/11 Commission, which said that ``[h]omeland 
security assistance should be based strictly on an assessment of risks 
and vulnerabilities.''
    Because all levels of government are working in a universe of 
limited resources, we need to prioritize how we spend those resources 
we do have. Sometimes this means tough choices--choices that the 
current formula structure avoids to the overall detriment of our 
national preparedness. For example, a recent DHS review of port 
security grants questioned the merits of ``several hundred projects.'' 
Rural, less populated areas often receive a disproportionate amount of 
money relative to the risks they face. Other States are allocating 
funds with only a cursory effort to assess risks or strategic need, 
perhaps because the current formula simply hands out pre-determined 
amounts of Federal homeland security assistance to every State 
regardless of their risks or vulnerabilities. Your legislation would 
give States a strong incentive to focus their plans on the highest-risk 
areas because they would have to compete for Federal funds. This kind 
of competition can only enhance our nation's overall preparedness, a 
point reflected in the 9/11 Commission's recommendations:
        [T]he federal government should require each State receiving 
        Federal emergency preparedness funds to provide an analysis 
        based on the same criteria to justify the distribution of funds 
        in that State. . . We further recommend that Federal homeland 
        security funds be allocated in accordance with [written] 
        benchmarks, and that states be required to abide by those 
        benchmarks in disbursing the federal funds.
    The bill addresses this recommendation in Section 1803, which 
requires the DHS Secretary establish specific, flexible, measurable, 
and comprehensive ``essential capabilities'' for State and local 
government terrorism preparedness. The aim of establishing these 
essential capabilities is to assist communities in determining what 
planning, training, equipment, and other capabilities are required to 
respond effectively to the specific risks that they face. States, in 
their planning and funding allocations, would be required to prioritize 
their additional needs for essential capabilities according to threat, 
vulnerability and consequence factors.
    Another aspect ``essential capabilities'' as defined in Section 
1801 of the bill is the ``the levels, availability, and competence of 
emergency personnel''. As this Committee well knows, one of the most 
important aims of all of our nation's homeland security efforts is the 
prevention of any future terrorist attacks. This responsibility falls 
almost exclusively on law enforcement and, as any officer can tell you, 
the best way to prevent any crime, be it large or small, is to deter 
its commission with proactive policing strategies in conjunction with a 
cop on a beat. Given the budgetary constraints at all levels of 
government, maintaining the needed police levels is a nationwide 
concern. I am aware of a number of local departments whose fiscal 
difficulties have resulted in a loss of officers. This should be of 
greater concern to all of us, because the law enforcement mission was 
changed in the wake of the terrorist attacks on September 11th. Law 
enforcement agencies must do more with less, and I am concerned that 
the level and availability of officers may affect our preparedness in 
some of our communities. I believe that the Committee should underscore 
this particular concern with respect to the evaluation of ``essential 
capabilities,'' be it in the legislation itself or in any accompanying 
report language.
    Section 1804 of the legislation would establish a twenty-five (25) 
member Task Force on Essential Capabilities for First Responders, which 
must include representation from the law enforcement community, to 
assist in prioritizing the ranking of essential capabilities and a 
methodology by which a State or local government can determine whether 
it possesses or has access to these essential capabilities. The Task 
Force will help in assessing grant application and work to ensure that 
different types of communities have access to the Federal resources 
they need to address their unique needs. In this way, the legislation 
meets another of the 9/11 Commission's recommendations: ``Resources 
must be allocated according to vulnerabilities. We recommend that a 
panel of security experts be convened to develop written benchmarks for 
evaluating community needs.''
    Both Sections 1803 and 1804 echo the Administration's efforts to 
enhance homeland security by identifying national preparedness 
priorities and baseline capability levels as directed by Homeland 
Security Presidential Directive 8 (HSPD-8). On 31 March, the DHS 
published the Interim National Preparedness Goal (INPG) as a guide for 
Federal departments and agencies, State, territorial, local and tribal 
officials, the private sector, non-government organizations and the 
public in making determinations about how to most effectively and 
efficiently strengthen preparedness for terrorist attacks, major 
disasters, and other emergencies. In the view of the F.O.P., the INPG 
accomplishes what Section 1803 proposed to do, which is to establish 
readiness priorities, targets, and metrics. Given this, we would 
recommend that your legislation be amended to reflect the work already 
done by the DHS in its Interim National Preparedness Goal and that the 
Task Force created by Section 1804 be directed accordingly.
    Three and a half years have passed since the terrorist attacks on 
New York and northern Virginia. In this time it has become clear that 
the current system of distributing Federal homeland security grants 
needs to be reformed. State and local officials, Secretary Ridge, and 
the 9/11 Commission all testified that the grant distribution system 
needs fixing. If our aim is to enhance the ability of State and local 
governments to prevent terrorist attacks or, if an incident should 
occur, to respond to them, then we must find a way to identify our 
priorities and then get the money to our first responders in a faster 
and smarter way.
    Risk prioritization--honest assessments about how to reduce our 
vulnerabilities to terrorist attacks--must be the guide by which we 
allocate Federal assistance to States and localities, and this goal is 
achieved by the bill that you and Ranking Member Thompson have 
introduced this week. The F.O.P. is proud to support the measure and we 
look forward to working with you and your counterparts in the Senate as 
this bill moves through the legislative process.
    I want to thank you, Mr. Chairman and Ranking Member Thompson, as 
well as the other Members of this distinguished Committee for the 
chance to appear before you today. I will now take any questions you 
may have.

    Chairman Cox. Thank you very much for your testimony.
    The chair would next recognize Mr. Kevin O'Connor, here 
representing the International Association of Fire Fighters. 
And he is the assistant to the general president of the 
International Association of Fire Fighters.
    Welcome, Mr. O'Connor.

                  STATEMENT OF KEVIN O'CONNOR

    Mr. O'Connor. Thank you, Mr. Chairman, Ranking Member 
Thompson, Representative Norton. My name is Kevin O'Connor and 
it is an honor and privilege for me to represent the 270,000 
men and women of the International Association of Fire Fighters 
who live and work in each of the nation's 435 congressional 
districts, providing fire rescue and emergency medical services 
protection to over 80 percent of our population.
    Mr. Chairman, I proudly served for 15 years as a fire 
fighter EMT in the Baltimore County Fire Department. And since 
2000, I have led the government and public division of the 
International Association of Fire Fighters.
    Let me begin by thanking you for your commitment and 
resolve on producing a meaningful authorization that addresses 
the homeland security needs of America's communities. Your bill 
very appropriately emphasizes and champions the vital role of 
our nation's fire service, while being sensitive to our 
collective responsibility to spend tax dollars wisely and 
efficiently.
    As first responders and as public servants, we understand 
that federal funding must be targeted. There is no free lunch 
or unlimited funding stream.
    As such, we join with you in demanding accountability. The 
federal government cannot simply say, ``Here is the money. Go 
prepare yourself for the next terrorist attack.''
    We must, of course, provide sufficient resources to 
guarantee that our domestic defenders get the job done. But we 
also must establish standards of measurement by which we can 
judge the effectiveness of our investment.
    The IAFF believes that there are two principal components 
to meet that objective. First, the lion's share of federal 
money must go to jurisdictions that are truly targeted high-
risk areas. We concur wholeheartedly with Secretary Chertoff's 
assessment that criteria must be based on three factors: 
threat, consequence and vulnerability.
    Consequently, we applaud the committee's bipartisan 
approach to utilizing a distribution formula based on risk, not 
on politics. I should note that the IAFF is very pleased that 
the guidelines set forth in the administration's proposed 
budget also embrace that philosophy.
    Second, to be effective, federal dollars must be disbursed 
quickly and efficiently. While we can all cite numerous 
examples of money being bottled up at various levels of 
government, the IAFF does not wish to bemoan the past; rather, 
we want to look prospectively at this issue.
    We are grateful that this legislation establishes a process 
and deadline to ensure that funds are passed on to local 
jurisdictions in a timely fashion. To successfully protect our 
communities and prepare first responders for the next terrorist 
attack, we must employ an all-hazard strategy for preparation 
and response.
    From a first responder's perspective, it does not matter if 
a building collapse is caused by a terrorist attack, faulty 
construction or a natural disaster; the result is the same: an 
emergency response requiring fire rescue, EMS and salvage 
activities. Today, according to FEMA's very enlightening needs 
assessment of the U.S. fire service, most fire fighters lack 
formal training in WMD and hazardous materials response.
    And 89 percent of all fire departments admit that a 
building collapse involving rescue and EMS operations with only 
50 trapped occupants are beyond their scope of operational 
capability. I cannot envision a major terrorist attack that 
would be any smaller in scope than that. These statistics, 
coupled with the sobering reality that over two-thirds of the 
nation's fire departments operate short-staffed, paint a 
terrorizing picture.
    Earlier, Mr. Hamilton said, ``Training can overcome fear.'' 
But training certainly cannot overcome the lack of resources.
    To respond to cataclysmic events, first responders must be 
trained, equipped and staffed to handle routine emergency 
calls. Employing an all-hazards approach is our only legitimate 
option.
    Recognizing these deficiencies and cognizant of fiscal 
realities, we endorse the concept of defining and establishing 
benchmarks outlining essential capabilities for fire 
departments, local and state governments. We feel that it is 
imminently reasonable that our Congress and the American public 
have standards by which fire departments can be evaluated.
    While we do not advocate imposing a series of federal 
mandates, we support establishing standards that are precise, 
measurable and comprehensive. In developing these benchmarks, 
it is prudent to rely on already-established national consensus 
standards for training, equipment and response capabilities.
    The National Fire Protection Association has already 
developed standards on practically every aspect of the fire 
service. These standards are currently recognized throughout 
the federal government and have been developed through a 
consensus process involving all potential stakeholders.
    We believe that these voluntary consensus standards, or 
similar benchmarks, must be part of the ongoing process of 
defining essential capabilities. Perhaps the greatest resource 
of knowledge that we have is first responders themselves. We 
know firsthand how to do the job and what is required to 
accomplish our mission.
    Consequently, the IAFF wholeheartedly endorses a task force 
on essential capabilities for first responders envisioned under 
this act and encourage you to insist that this provision be 
included in any final authorization. While we appreciate DHS 
developing a target capabilities list, we feel the bar is set 
too low.
    These capability measurements must be set at the highest 
common denominator, not the lowest. Since lives are at stake, 
we need to apply these standards for benchmarks in making 
decisions with respect to funding allocations.
    In conclusion, Mr. Chairman, Ranking Member Thompson and 
committee members, I thank you for this opportunity. But more 
importantly, I thank you for your work in strengthening our 
homeland and protecting America's bravest.
    Thank you.
    [The Statement of Mr. O'Connor follows:]

                Prepared Statement of Kevin B. O'Connor

    Mr. Chairman, Mr. Ranking Member and distinguished members of the 
Committee.
    It is a pleasure to appear here today on behalf General President 
Harold A. Schaitberger, and the 267,000 men and women of the IAFF. The 
IAFF is by far the largest fire service organization in the nation, 
whose members protect over 80 percent of the population. Proudly, we 
have members in all of the nation's 435 Congressional districts.
    Before joining the IAFF, I spent 15 years as a fire fighter in 
Baltimore County, Maryland and had the opportunity to serve as 
President of the Baltimore County Fire Fighters Association and the 
Maryland Professional Fire Fighters. I also served as a Commissioner on 
the Maryland Fire Rescue Education and Training Commission, which 
promulgated standards and regulations concerning fire service training 
and requirements for Maryland's 35,000 professional and volunteer fire 
fighters. So while I speak for the IAFF, I also can appreciate from 
personal experience the enormous impact this committee will have on our 
nation's first responders--the men and women on the ground who work to 
protect the public on a daily basis.
    Mr. Chairman, I do not have to spell out for you the problems that 
have occurred in the allocation of federal homeland security dollars. 
Your admonishments on this week's episode of 60 Minutes concerning 
misplaced priorities and pork spending were on target and we applaud 
your courage and honesty. The bottom line is that far too much of the 
money allocated by Congress never reaches the front line emergency 
responders, with funding lost in large state bureaucracies or, as 
former Secretary Ridge testified last year, ``stuck in the pipeline.'' 
And money that does reach localities often goes to areas of 
questionable need. The Congressional Research Service found, for 
example, that Wyoming's FY 2005 allocation amounted to $18 per person, 
while New York--arguably our nation's most at risk state--received 
$2.57 per capita. It is a travesty that in the post 9/11 world 
budgetary woes have caused the New York Fire Department to close six 
engine companies.
    We at the IAFF do not place blame on any particular department or 
public official for this; nor are we here to pit one state against 
another. After the tragedy of September 11, 2001, federal dollars were 
understandably appropriated quickly to help protect our homeland and it 
is little surprise that these funds were not always wisely spent. There 
were no analyses of threat; no real input from first responders on the 
ground; and no authorizing legislation in place.
    The fault lies not with any particular federal agency, but rather 
with the lack of coordination and historic turf battles between levels 
of government--local, state and federal. Attaining efficient use of 
federal funding will require government officials at all levels to move 
beyond pre-September 11 mindsets and traditions, and require the active 
involvement of the first responder community.
    Last year, as a Select Committee, this panel worked tirelessly to 
produce a reform bill that made its way through five different 
committees and incorporated the concerns of numerous outside 
organizations. The IAFF endorsed that legislation, and while we did not 
agree with every single provision in its final form, we embraced it as 
a great leap forward and a major improvement over the existing process 
of allocating funds.
    The legislation has now been reintroduced in the 109th Congress as 
the Faster and Smarter Funding for First Responders Act, and we are 
pleased to once again stand with you, Mr. Chairman, in support of this 
effort to improve the distribution of this funding. We understand that 
changes to this legislation are likely to be necessary as it moves 
through the legislative process, and we look forward to continuing to 
work with you in the months ahead.
    The following are some of the key elements that we believe must be 
embodied in the final package if we are to achieve our goal of smarter 
and faster funding.

    All-Hazards Approach
    Underlying any discussion of emergency response and homeland 
security should be the recognition of the ``all-hazards'' approach used 
in the fire service. From the perspective of the first responder, the 
cause of an emergency incident is far less significant than the 
immediate threats to life, health and property. The initial response 
required to a disaster caused by natural phenomena or tragic accident 
differs little from the response to a terrorist attack. The best way to 
prepare emergency responders to respond to acts of terrorism is to 
prepare them to respond to any and all hazards. Efforts to restrict the 
federal government's involvement in emergency response solely to acts 
of terrorism or to create arbitrary distinctions between 
``traditional'' and newer fire service missions will ultimately prove 
counterproductive to the goal of protecting Americans.
    Since 9/11 a multitude of studies including the Council on Foreign 
Relations, the USFA Assessment of Fire Service Needs, and others have 
accurately painted the needs and deficiencies that plague first 
responders in fire departments large and small, urban and rural. These 
deficiencies must be addressed as part of a comprehensive homeland 
security strategy.
Threat Based Funding
    The primary reason that much homeland security funding has been 
ill-spent is use of a distribution formula that is weighted too heavily 
toward rural areas, without sufficient consideration of need and 
threat. A key recommendation of the National Commission on Terrorist 
Attacks Upon the United States (more commonly known as the 9/11 
Commission) was that federal homeland security assistance be 
distributed to state and local governments based on risk and 
vulnerability. Specifically, the Commission cited the need to assess 
risk and vulnerability by looking at such key issues as population, 
population density, vulnerability, and the presence of critical 
infrastructure within each state.
    We believe the Faster and Smarter Funding for First Responders Act 
effectively addresses this essential goal. While we continue to support 
a reduction or elimination of state minimum allocations, we believe the 
legislative proposal represents an effective compromise with those who 
oppose moving to an entirely threat-based formula.

Essential Capabilities
    The IAFF has been an early and strong supporter of clearly defining 
essential capabilities for state and local government preparedness. The 
development of such capabilities is especially crucial in the fire 
service, which historically has lacked the sort of state-defined 
standards used in law enforcement, emergency medical care, and many 
other disciplines.
    What it means to be a fire fighter or what fire departments should 
be capable of remain largely a matter of local custom and predilection. 
Industry consensus standards are completely voluntarily and too often 
ignored. As a result, there is wide disparity in fire department 
systems, structures, training requirements, etc.
    In order to be sure that federal dollars are wisely spent, it will 
be necessary to define capabilities for fire departments that are 
specific, measurable and comprehensive. Above all, the capabilities 
must be the highest common denominator for our discipline. The 
standards should be demanding, and challenge our nation's fire 
departments to provide the kind of public safety protection that our 
citizens deserve. Frankly, we would be shortchanging the public and 
communities we serve if we were to implement capabilities standards 
that were inadequate or set arbitrarily low standards to ensure easier 
compliance.
    We respect the rights of communities to make determinations for 
themselves regarding the level of fire protection they feel is 
appropriate, and we are not suggesting that such capabilities should be 
imposed as a federal mandate. But we are suggesting that any community 
seeking federal assistance must be willing to abide by realistic 
standards. We owe no less to our nation's taxpayers.
    In order to ensure that the standards are specific and appropriate, 
it is crucial that first responders are actively involved in the 
development of these capabilities. The expertise of first responders in 
evaluating the relevance, success or shortcomings of the capabilities 
in real life emergency situations is invaluable. For this reason, we 
strongly endorse the Task Force on Essential Capabilities for First 
Responders envisioned in the Faster and Smarter Funding for First 
Responders Act. With a membership drawn from first responder groups, 
including the fire service, as well as experts in emergency health, 
state and local preparedness and standards-setting organizations, among 
others, the Task Force will likely serve as the one coordinated expert 
panel to help achieve concrete and workable capabilities.
    We recognize that the Department of Homeland Security has been 
moving forward on its work to establish capabilities in connection with 
Homeland Security Presidential Directive 8 on domestic preparedness. 
The Department has issued a Targeted Capabilities List (TCL) and an 
Interim National Preparedness Goal to establish minimum capabilities 
and standards. While we are appreciative of the effort, we are 
disappointed with the results of their work to date. Too much emphasis 
has been placed on the need for flexibility, and too little attention 
paid to the perspectives of front line domestic defenders. The TCL in 
particular will have little practical effect. While the National 
Response Plan stresses the need for emergency incidents to ``be handled 
at the lowest possible organizational and jurisdictional level,'' the 
capability definitions under the TCL do little to assure that local 
agencies are capable of fulfilling this essential function.
    In order to address these shortcomings, the Task Force on Essential 
Capabilities for First Responders should be retained and exercise an 
active role in the federal agency's ongoing efforts to implement the 
National Preparedness Goal.
    Finally, I wish to stress that meeting the essential capability 
benchmarks will require more than making compliance a condition of 
receiving federal funds. Localities throughout the nation must make a 
commitment to ensure that their fire departments have the resources 
they need to get the job done. Most significantly, critical staffing 
shortages in both career and volunteer fire departments are the leading 
obstacle to fulfilling our mission. As recent independent studies have 
highlighted, without sufficient personnel, fire departments are not 
able to respond to minor events, much less major emergencies.
    While federal programs such as SAFER can play an important role, 
ultimately it is up to every Mayor and City Manager to ensure that fire 
departments have adequate staffing to protect the public.

National Incident Management System (NIMS)
    Any discussion of preparedness and capabilities must take into 
account the National Incident Management System (NIMS) which was issued 
on March 1, 2004 to provide a framework for entities at all 
jurisdictional levels to work together to manage domestic incidents. 
Effective incident command is the lynch pin of an effective, 
coordinated response to all emergencies. Moreover, it is critical to 
fire fighter health and safety. The National Institute for Occupational 
Safety and Health (NIOSH) has consistently identified lack of incident 
command systems as a leading cause of fatalities on the fire ground.
    We, therefore, endorse the current policy of linking first 
responder funding to compliance with NIMS. We do not share the views of 
some other fire service organizations that advocate a delay in NIMS. 
While complying with NIMS is sure to present challenges for many fire 
departments, we believe the federal government must encourage our 
nation's fire departments to meet those challenges.

The Role of States
    The IAFF remains concerned about an over-reliance on state 
government as the conduit of emergency responder funding. Historically, 
states have had little involvement in the fire service, and to this day 
there is little fire service presence in many state capitals.
    Because of this history and culture, providing funding to states 
presents obstacles in getting funding to local fire departments. Even 
in the post-September 11 world, we have witnessed examples of emergency 
responder funds in certain states going exclusively to local police 
departments because the Governor named the state police as the point of 
contact for all homeland security grants. Relying on their already 
established relationships, the state police simply doled out the 
federal funds to local police, leaving the fire service no better off 
than before.
    While the IAFF would prefer a more direct funding stream directly 
to localities, we believe several provisions in the Faster and Smarter 
Funding for First Responders Act will help address the problem.
    First, the legislation clearly identifies the percentage of funding 
that states must pass through to localities as well as the time frame 
for such pass through.
    Second, the legislation contains a by-pass mechanism that 
localities and regions can use if states fail to abide by the pass-
through requirements.
    Third, the preservation of the Urban Area Security Initiative 
(UASI), subject to the requirements of the Faster and Smarter Funding 
for First Responders Act, will enable Congress to continue to send 
money directly to certain localities. We concur that UASI may be 
unneeded if states fully comply with the spirit and letter of this 
legislation, but we feel more secure knowing that the option of funding 
UASI is still available.
    Finally, we strongly endorse maintaining as separate and distinct 
programs two grant programs that provide funding directly to fire 
departments. As long as the FIRE Act and SAFER continue to exist, 
subject to appropriations, America's fire service will receive federal 
assistance.

Accountability
    A key flaw in the current distribution system for homeland security 
funding is the lack of an effective accountability system at the 
federal level. States are required to submit plans, but there is little 
follow through to see if the funding is actually used to implement such 
plans. We encourage this Committee to work with the Department of 
Homeland Security to develop procedures to assure accountability of all 
federal dollars.

State Plans
    The adoption of State Plans is a critical component of this 
legislation, but the quality of state plans approved to date varies 
widely. We recommend that the Faster and Smarter Funding for First 
Responders Act be amended to require the involvement of front line fire 
service and other emergency response organizations in the development 
of state plans. It would be a mistake to presume that states would 
necessarily do this of their own volition, especially in regard to the 
fire service.
Voluntary Consensus Standards
    IAFF supports the inclusion of voluntary consensus standards for 
equipment and training for the basis of allocating funds under the 
bill. Under the Faster and Smarter Funding for First Responders Act, 
the Secretary must consult with public and private sector groups such 
as the National Fire Protection Association and other experts to 
develop, promulgate and regularly update national voluntary consensus 
standards. This is an important tenet to the bill and one that cannot 
be overstated. The voluntary consensus process is a method of 
developing standards, which is based on several key principles, 
including: openness, balance of interest, due process, an appeals 
process and consensus. In this process, experts in given fields work 
together in developing standards that are subjected to a thorough 
review process involving a round of hearings, panel discussions and 
votes. The NFPA standards process even provides for the development of 
separate standards for career and volunteer fire departments, to 
account for differences in mission and scope of service. The process is 
likely to ensure quality and higher expectations at the local level. 
These provisions should be retained.

Backfill and Personnel Costs
    One of the challenges communities face in trying to take full 
advantage of this invaluable federal assistance is continuing their on-
going emergency response activities while also training for enhanced 
capabilities. The fire service is not like many occupations in which a 
person who is receiving training can simply be away from their desk for 
a day. When a fire department assigns a fire fighter to attend a 
training, that fire fighter's position must be ``backfilled'' by 
another fire fighter. In most departments, that means paying overtime 
to a fire fighter who is being required to work an extra shift. This 
backfill cost can be prohibitive, and in some cases has forced fire 
departments to decline to receive ostensibly free training.
    While the Department of Homeland Security has embraced the idea of 
allowing funding to be used for backfill costs, implementation of this 
policy has been inconsistent. We recommend that clear language be 
included in the Faster and Smarter Funding for First Responders Act to 
ensure that fire departments can seek reimbursement for overtime costs 
associated with DHS-funded training programs.
    Additionally, while the primary purpose of first responder funding 
is to enhance training, equipment, and planning, there may be instances 
in which a local government's greatest need is for a full time position 
devoted to coordinating disaster response. The legislation should 
expressly allow for such uses in limited circumstances.

The Administration's Proposal
    The Administration's position on the allocation of first responder 
grants has evolved considerably over the past three years, and we are 
very supportive of the proposals contained in President Bush's fiscal 
year 2006 budget. We are especially appreciative of the 
Administration's support of a threat-based allocation formula and a 
reduced state minimum. Even the Administration's work to identify 
essential capabilities of emergency responders, while lacking in its 
specifics, is a well-intentioned first step. I am pleased to note that 
the Administration's proposal bears a striking resemblance to Faster 
and Smarter Funding for First Responders Act.
    I raise this point in my testimony, Mr. Chairman, because I believe 
the dynamics facing the 109th Congress may be significantly different 
from those in the 108th Congress when you started on this effort. While 
we continue to support the concept of passing legislation to address 
the concerns with the first responder grant program, we are no longer 
of the view passing a bill--any bill--is necessarily preferable to the 
status quo.
    If DHS is indeed able to move in the directions you have outlined, 
there may come a point in the legislative process that it would be 
preferable to allow DHS to make changes administratively rather than 
agree to a watered down compromise.

Conclusion
    Before ending my testimony, I would be remiss, Mr. Chairman, and 
Ranking Member Thompson, if I did not take a moment to pay tribute to 
both of you and your extraordinary staffs. Throughout the past two 
years, the IAFF has had the pleasure--and I do mean pleasure--of 
working closely with you on the development of this legislation. And 
while we have not always been in 100 percent agreement, you have always 
taken the time to seriously consider our views. You have made an 
arduous journey both productive and enjoyable, and we are deeply 
appreciative of your diligence, abiding commitment, and friendship.
    I thank you for your attention to our views, and I would be happy 
to answer any questions you may have.

    Chairman Cox. Thank you very much for your testimony.
    We next recognize and welcome Chief Greg Lord, who is the 
director of the National Association of Emergency Medical 
Technicians and who is himself division chief for EMS at the 
Cherokee County Fire Emergency Services.
    Welcome.

                STATEMENT OF CHIEF GREGG C. LORD

    Mr. Lord. Good afternoon.
    Mr. Chairman, Ranking Member Thompson, members of the 
committee, my name is Greg Lord. I am a paramedic and a member 
of the National Association of Emergency Medical Technicians 
board of directors and a vice chairman of the NAEMT.
    I currently serve as division chief of emergency medical--
    Chairman Cox. Chief Lord, I wonder, is your microphone 
turned on?
    Mr. Lord. The light is on.
    Chairman Cox. Maybe just pull it a little closer if you 
can? Thanks.
    Mr. Lord. Is this any better? I currently serve as division 
chief of emergency medical services for Cherokee County, 
Georgia, a suburban county on the edge of Northwest Atlanta.
    NAEMT is the largest national EMS organization in the 
nation. And it represents the interests of more than 900,000 
EMTs and paramedics who are on the domestic response front line 
to emergencies, disasters and domestic response incidents.
    NAEMT appreciates this opportunity to appear before you 
today to speak in our support of 1544. H.R. 1544 will provide 
an acceptable common set of rules for the allocation of funds 
under the covered grant program.
    The failure of the existing terrorism preparedness grants 
to employ a uniform functional area approach in which specific 
critical response performance taskings are designated, similar 
to HSPD-8, has resulted in EMS, a critical response 
requirement, not being included in the readiness enhancement 
process. NAEMT believes that the majority of EMS systems are 
inadequately prepared to respond to high-impact emergencies, 
including WMD attacks.
    As a nation and as a professional community, we need to 
join together to define what readiness is and then set our 
sights on attaining the agreed-upon goal. Without defining 
readiness benchmarks, state and local responders are placed in 
the untenable position of attempting to determine this on their 
own.
    We support the adoption of the national preparedness goals 
based upon the all-hazards approach and tempered by location, 
threat, vulnerability, consequences and response needs. While 
we acknowledge the varying needs of communities and the diverse 
threat levels, we do not think it is unreasonable to establish 
a readiness baseline that all communities strive to attain 
while concurrently enhancing levels of capacity for communities 
where the prevailing threat is greater or the potential to 
respond is more prominent.
    This should not be interpreted as only committing to 
support urban centers, nor the unrealistic expectation that 
every community should be expected to achieve incredible levels 
of readiness. Rather, we recognize a fundamental need for all 
responders, including EMS, to have a fundamental baseline of 
readiness.
    Past high-impact emergencies in the United States have 
demonstrated that mutual aid is truly the ultimate tool for 
local emergency response burden sharing. Whether it was 
Oklahoma City, the 9/11 Pentagon response or 1993 and 2001 
World Trade Center attacks, mutual aid was the only reason that 
the emergency response system was able to sustain critical 
response performance.
    Adopting a practical, performance-based process that 
requires all responder functions to have a fundamental baseline 
of competency is critical. We strongly encourage that 
responders which are in the regions designated as high-threat 
areas receive the required additional training, equipment and 
funding that is commensurate to meet the threat challenge. H.R. 
1544 will provide this support to those communities.
    A recent report from DHS conveys that EMS received only 
four percent of the first responder funding for a series of 
non-EMS-specific programs. This untenable scenario has emerged 
largely in part due to federal entities believing that others 
are addressing the EMS issue, while no meaningful EMS capacity 
building has occurred in the process.
    Failure to address these issues will ultimately result in a 
continuance of substandard preparedness of the EMS 
organizations and providers and, we believe, a higher mortality 
and morbidity rate of the innocent victims of a terrorist 
attack. The failure of the federal government to enhance 
preparedness of our nation's EMS responders is an oversight 
that cannot be permitted to continue.
    Currently, we have EMS responders who will respond with no 
more specialized equipment than the clothes on their back. A 
recent NAEMT Internet survey showed that 85 percent of the 
respondents answered ``no'' to the question: does your EMS 
system provide personal protective equipment for terrorism 
response?
    Another survey conducted annually by the National Registry 
of Emergency Medical Technicians yielded that the average EMS 
responder received less than 2 hours of terrorism training last 
year.
    Collectively, these findings paint a bleak picture of 
preparedness. NAEMT considers this to be unacceptable and one 
of the most unrecognized preparedness deficiencies in America.
    We are highly concerned about the safety of EMT and 
paramedic responders. How can they protect themselves and 
render lifesaving treatment to the victims?
    Protecting EMS personnel and saving lives at an incident 
cannot be mutually exclusive. They are forever in tandem. If 
the EMS personnel are trained and protected, lives can be 
saved. If not, the results will be vastly different.
    We encourage you to review our written testimony for a very 
detailed examination of the EMS readiness gaps. The present 
grant system failed to support EMS. The Cox-Thompson Bill 
recommended process should enable the Secretary of Homeland 
Security to address this inequity.
    H.R. 1544 will ensure that the utilization of threat and 
vulnerability analysis, coupled with resource preparation and 
planning, shall and must include EMS assets. The national 
response plan, coupled with the national preparedness goals, is 
an outstanding and necessary step towards preparation. The 
prevailing challenge is to ensure that all critical assets are 
included in the process to prepare our communities and keep 
event mortality and morbidity to a minimum.
    In conclusion, NAEMT supports H.R. 1544, the Faster and 
Smarter Funding for First Responders Act of 2005. When the next 
disaster occurs, EMTs and paramedics will respond, despite the 
fact that many are poorly prepared and may be sacrificing their 
well-being or their lives to provide assistance.
    This bill is a good and necessary step toward the 
improvement of national preparedness. We hope that it will also 
make significant strides towards assisting our forgotten first 
responders across the United States.
    Thank you for this opportunity to speak on behalf of the 
EMTs and paramedics. And I would be happy to respond to any 
questions the committee members may have.
    [The statement of Mr. Lord follows:]

               Prepared Statement of Chief Gregg C. Lord

    Chairman Cox, Ranking Member Thompson, members of the committee and 
fellow public safety officers, my name is Gregg Lord. I am a paramedic 
and a member of the National Association of Emergency Medical 
Technicians (NAEMT) Board of Directors & Vice Chairman of the NAEMT 
National EMS Administrators Division. I am also Division Chief of 
Emergency Medical Services in Cherokee County, Georgia, a suburban 
county on the northwest edge of Atlanta. Throughout my career I have 
served in a various capacities in rural, suburban and urban 
environments including a rewarding progressive career in Worcester, 
Massachusetts where I retired as Chief of EMS Operations.
    NAEMT represents the interests of more than 950,000 Emergency 
Medical Technicians and Paramedics throughout the United States. These 
men and women currently serve this nation daily on the frontlines of 
our domestic response to emergencies, disasters, and terrorist's 
incidents.
    On behalf of the Paramedics and EMT's of this great nation, the 
National Association of Emergency Medical Technicians appreciates this 
opportunity to appear before you today to provide testimony regarding 
HR 1544 and its critical importance to our nation's security. In 
general, we will speak to areas that effect our constituency, the EMTs 
and Paramedics who respond to the incidents. The passage of this bill 
can provide the following positive effects:
        <bullet> The enhancement of Emergency Medical Service capacity 
        to respond to acts of terrorism and high impact disasters.
        <bullet> Training for EMT's and Paramedics who are charged with 
        responding to dangerous and unpredictable emergency scenes with 
        the ultimate requirement of turning victims into patients.
        <bullet> Sustained funding for EMS systems to procure the 
        requisite personal protective equipment, response adjuncts and 
        continued performance based training to remain ready.
    Our nations' EMS community needs your assistance to enhance its' 
capacity to respond to these high impact mass casualty terrorist acts. 
As Members of Congress and the Homeland Security Committee, you can and 
will make an important difference by uniting with our nations Emergency 
Medical Service professionals to ``protect the protectors''. As you 
have seen via numerous reports of late, just about every emergency 
response function across the public safety spectrum has received some 
fiscal relief; the burden upon EMS organizations to prepare is great 
but the federal assistance has been derisory.
    According to a recent report from the Department of Homeland 
Security, EMS has received only four (4 percent) percent of the first 
responder funding through a series of programs that are not EMS 
specific program funds.\1\ Additionally, EMS has received only 
approximately five (5 percent) percent of funds slated for bioterrorism 
preparedness, again from programs that are not EMS specific in 
origin.\2\ This untenable scenario has emerged largely in part due to 
federal entities believing that others are addressing the issue and 
while no meaningful capacity building has occurred. EMS is a public 
safety function charged with the delivery of a public health service 
via emergency medical care and rescue. Failure to address these issues 
will ultimately result in a continuance of sub-standard preparedness of 
EMS organizations and providers AND we believe a higher mortality & 
morbidity rate of the innocent victims of a terrorist attack. Clearly, 
the failure of the federal government to assist in the preparation of 
our nations EMTs and Paramedics via EMS specific training, equipment 
issuance and organizational fiscal relief to conduct these activities 
is an oversight that can not be permitted to continue.
---------------------------------------------------------------------------
    \1\ I Department of Homeland Security. ``Support for EMS Provided 
by the DHS Office of State and Local Government Coordination and 
Preparedness.'' A Report to the Committees on Appropriations of the 
United States Senate and House of Representatives. Washington, D.C.; 
May 2004: 42.
    \2\ NYU Center for Catastrophe Preparedness and Response--Emergency 
Medical Services: The Forgotten Responder p4--March 2005
---------------------------------------------------------------------------
    Currently in the United States, we have EMS providers who are 
charged with providing extrication, rescue, and emergent care after a 
terrorist incident that will respond with no more specialized equipment 
than the clothes on their back. A recent National Association of 
Emergency Medical Technicians Internet survey regarding ``Homeland 
Security & EMS \3\'' yielded that eighty-five (85 percent) percent of 
the respondents answered no to the question; ``Does your EMS system 
issue personal protective equipment (PPE) to the EMS members for 
terrorism response?\4\'' Regarding respiratory protection for fifteen 
(15 percent) that responded that they had been issued personal 
protective equipment, fifty-eight (58 percent) responded that they had 
only been issued N-95 respirator masks. An article in the February 15, 
2003 edition of the Washington Post entitle ``N-95 Masks Flying Off 
Shelves, But They Offer Scant Protections'' \5\ cites:
---------------------------------------------------------------------------
    \3\ Refer to Appendix ``A'' for charting from the survey
    \4\ NAEMT--Homeland Security & EMS--Internet Survey--13,210
    \5\ N-95 Masks Flying Off Shelves, But They Offer Scant Protection 
http://www.ph.ucla.edu/epilbioter/n95masks.html
---------------------------------------------------------------------------
        The latest hype and misinformation coming out of our latest 
        Code Orange emergency preparedness is about a disposable dollar 
        mask made with white cloth and an elastic strap--the N95.
        Sold at medical supply and hardware stores, they're the 
        lightweight, nose-and-mouth respirators designed for medical 
        settings and good for blocking allergens when mowing the lawn. 
        Which begs the question: Can a mowing aid fend off a weapon of 
        mass destruction? How effective would they be in a biological, 
        chemical or nuclear attack?
        ``Not much, but better than nothing,'' says Victor Utgoff, a 
        defense analyst at the Alexandria-based private Institute for 
        Defense Analysis who has studied gas masks. ``They generally 
        protect you from getting particles into your lungs, paint chips 
        and things like that.''
    We fully understand the important role that the N-95 mask plays in 
protecting individuals from threats such as TB and some airborne 
particulate, but this can not be the only tool for respiratory 
protection.
    With regards to the question about chemical protection ensembles 
issued to EMS personnel, again of the fifteen (15 percent) that 
responded that they had been issued personal protective equipment, 
ninety-five (95 percent) percent responded that ``Level D'' was the 
available PPE. The US Environmental Protection Agency (EPA) defines the 
operational parameters for Level D to be ``Use Level D only when no 
danger of chemical exposure exists. It consists of standard work 
clothes and no respiratory protection".\6\ Given this response we are 
highly concerned about the safety of EMT and Paramedic response 
personnel to a high impact emergency or CBRNE terrorist attack that 
involves chemicals deployed as a weapon. Without the proper protection, 
how can the safely protect themselves AND render lifesaving treatment 
to the victims? Protecting EMS personnel and saving lives at the 
incidents can not be mutually exclusive, they are forever in tandem. If 
the EMS personnel are trained and protected lives can be saved, if not. 
. .
---------------------------------------------------------------------------
    \6\ Hazmat Robert Cox, MD, PhD, Director, Medical Toxicology 
Service, Associate Professor, Department of Emergency Medicine, 
University of Mississippi Medical Center http://www.emedicine.com/
emerg/topic228.htm.
---------------------------------------------------------------------------
    According to the LEADS survey conducted annually by the National 
Registry of Emergency Medical Technicians, an educational testing 
organization, the average EMS responder received less than two hours of 
``terrorism training''.\7\ In response to the question ``Has your EMS 
system provided terrorism response training to its EMS members?'' under 
the NAEMT Internet Survey sixty-seven (67 percent) of the respondent 
indicated no. Additionally, of those that responded in the affirmative 
thirty-four (34 percent) indicated they were given a ``self study 
guide'' as the sole training they were offered. We believe that the 
complexities and dangers that responding to a terrorist incident poses 
our members requires a more appropriate response to provide training, 
simulation and EMS scenario driven exercising to enhance readiness and 
overall capacity to respond effectively in times of crisis. This 
currently does not exist.
---------------------------------------------------------------------------
    \7\ The National Registry of Emergency Medical Technicians. ``2003 
The Longitudinal EMT Attribute and Demographic Study (LEADS)'' 
Columbus.
---------------------------------------------------------------------------
    The Cox-Thompson bill before you now, will provide a common set of 
rules for the allocation of funds under the covered terrorism 
preparedness grant programs. Moreover, it can provide several 
advantages towards the global increase in preparedness for terrorist 
events in the United States. As has become evident, EMS has been left 
out of much of the terrorism preparedness granting process. Our 
colleagues in law enforcement and fire services have received large 
portions of the available terrorism preparedness grants, as they 
should. But under the present grant structures the failure to employ a 
uniform ``functional area'' approach in which we designate the specific 
critical response performance taskings--similar to the HSPD-8--has 
resulted in EMS, a critical response requirement, not being included in 
the readiness enhancement process. NAEMT believes that failing to 
embrace and utilize a performance based functional area approach for 
national readiness improvement will only sustain a flawed system that 
addresses funding essentially by agency affiliation and not critical 
function. The development of the domestic preparedness grant system was 
done with little or no input regarding the unique and specific issues 
of EMS provision in the United States. The process within DHS should 
enable this inequity to be addressed by the Secretary of Homeland 
Security.
    Currently there is no cross-referencing between the domestic 
preparedness grant system and other programs such as COPS and the Aid 
to Firefighters Grant (AFG). We believe that creating clear delineation 
between the goals of each program will result in a more targeted 
approach to funding domestic preparedness. We expect this approach to 
diminish duplication of efforts while concurrently assuring that 
existing programs continue to fulfill the charge that they were 
designed and implemented to accomplish.
    EMS providers in this country have minimal protection against the 
effects of terrorist incidents. A 2003 study sponsored by the 
Department of Health and Human Services found that EMS providers lacked 
the necessary protective equipment to respond to a bioterrorist 
threat.\8\ Actually, we are sending our EMS responders to incidents 
that may cost them their lives. The National Association of Emergency 
Medical Technicians considers this to be unacceptable and one of the 
most unrecognized preparedness deficiencies in America. By recognizing 
the need for the creation and provision of EMS specific fiscal 
resources you will further our mission of ``saving lives, protecting 
property and conserving the environment''. Unquestionably the NAEMT 
firmly believes that the funneling of financial resources to the local 
levels, empowering our constituents and the community to prepare is of 
the first priority.
---------------------------------------------------------------------------
    \8\ Health Resources and Services Administration. ``A National 
Assessment of State Trauma System Development, Emergency Medical 
Services Resources, and Disaster Readiness for Mass Casualty Events.'' 
Aug. 2003.
---------------------------------------------------------------------------
    The Cox-Thompson First Responder bill will insure that utilization 
of threat and vulnerability analysis coupled with resource preparation 
and planning must include EMS assets. Numerous reports have expressed 
the lack of local planning which involve EMS resources. Development of 
a national guideline that is based in objective preparation and 
planning within DHS will insure that the pre-hospital response 
resources are adequately prepared to respond to not only terrorist 
incidents, but also the more common disasters that affect every 
community on an occasional basis. The National Response Plan coupled 
with the National Preparedness Goals outlined by HSPD-8 is an 
outstanding and necessary step toward preparation. The challenge to DHS 
and this Committee is to insure that all critical assets are included 
in the process. Historically, EMS has been left out of the process. 
This must be changed if we are to prepare our communities for disaster 
response of all types and concomitantly ensure the ability to keep 
event mortality and morbidity to a minimum. HS 1544 requires the 
formation of a First Responder Task Force. We applaud this initiative 
and welcome the opportunity to serve in support of the task force.
    NAEMT believes that the majority of EMS systems in the United 
States are inadequately prepared to respond to high impact / high yield 
emergencies including a ``weapon of mass effect'' attack. We support 
the development of an essential capabilities list based upon the all 
hazards approach and tempered by location, threat, vulnerability, 
consequences and response needs. As a nation and as a professional 
community we need to join together and define what readiness is and 
then set our sights on attaining that agreed upon goal. Without 
defining and establishing readiness benchmarks the state and local 
responders are placed in the untenable position of attempting to 
determine this on their own. Subsequently this results in communities 
with readiness that spans the entire preparedness continuum.
    While we acknowledge the varying needs of the individual 
communities and the diverse threat levels each mayor may not confront, 
we do not think that it is unreasonable to establish a baseline of 
readiness that all communities should strive to attain while 
concurrently having enhanced levels of capacity for those communities 
where the prevailing threat may be greater or the potential to respond 
is more prominent.
    This should not be interpreted as only committing to support urban 
centers nor the unrealistic expectation that every community should be 
expected to achieve incredible levels of readiness for CBRNE response. 
Rather we recognize a fundamental need for all responders (including 
EMS providers) in the nation to receive a ``baseline'' of training to 
effectively respond to an event.
    As we know from past disasters and terrorist events in the United 
States, mutual aid is truly the ultimate burden sharing methodology for 
local emergency response. Whether it was the OKC bombing, Centennial 
Park attack, the 9-11 Pentagon response or the 1993 & 2001 World Trade 
Center attacks--mutual aid was the only reason that the emergency 
response system was able to sustain performance. I am sure that the 
volunteer EMT's from a rural EMS rescue squad in western New Jersey did 
not think that they would ever be a responder to the largest terrorist 
attack in U.S. history, but they did alongside other responders from 
New York, New Jersey, Connecticut, Pennsylvania, and Massachusetts--to 
name but just a few--that mutual aid compacts activated and deployed.
    Adopting a practical performance based training process that 
requires all responder functions to have a fundamental baseline of 
competency is critical and will assist the federal government with 
elevation of readiness while concurrently institutionalizing the 
training requirements into the existing curricula's for becoming an 
EMT, Paramedic, Police Officer or Firefighter at a local level.
    We further believe and strongly encourage that those EMT's and 
Paramedics that are in regions that have been designated as a high 
threat area receive the required additional training, equipment and 
funding that is commensurate to meet that threat challenge. HR1544 will 
provide this to the first responders of America.
    Emergency Medical Response capability in this country is diverse. 
The diversity creates many challenges that must be addressed if we are 
to be prepared to respond to disasters wherever they occur. The 
diversity necessitates that we utilize creativity to address the 
terrorism preparedness grant process to insure that non-governmental 
providers who provide emergency response to many of our communities 
have the needed resources to respond. The present system created by the 
Congress has evolved into ``agency'' specific funding rather then 
adopting a ``functional'' approach whereby the function is funded and 
the local providers of that function qualify for funding. In any event, 
while just about every emergency response function has received some 
fiscal relief; EMS has yet to see any specific targeted assistance to 
enhance EMS readiness. This bill provides for an extensive advisory 
board and NAEMT would expect that representatives of our diverse 
constituency would have ample place in the process.
    The seats at the table should be not about what government agency, 
but what service is being provided and what are the needs of the 
community. It should matter not that a private ambulance provider, 
under contract to the local government, is at the table or a government 
service. The response is the issue and the terrorism preparedness grant 
process must address this concern. Various communities have opted to 
contract a non-governmental agency to provide EMS to their community. 
Presently there is no means of providing assistance to these 
organizations. The bill does not speak specific process for terrorism 
preparedness grant awards, but NAEMT wishes to provide this committee 
with concepts that address specific issues that impede domestic 
preparedness. This issue of providing material support to non-
governmental providers must be overcome.
    We suggest that perhaps as an alternative in these cases that the 
support for these initiatives be to the local community with the Mayor 
or County Executive as the designated recipient with the temporary 
issuance of the equipment or services handled by the local executive 
agent. If entity ``X'' is the provider of EMS services to a community 
for the term of a contract, the executive agent executes a loan 
agreement that coincides with the terms of the contract. As long as the 
contract remains in force, the equipment et al remains on-loan. In the 
event that the contract expires the recipient returns the equipment to 
the executive agent for the community, with full accounting for all, 
including maintenance etc, re-issuance to the new service provider. By 
adopting this strategy the federal government is not being forced to 
conduct response & readiness triage based upon what patch the EMT or 
Paramedic is wearing, essentially denying a community the resources to 
protect itself and responders.

Conclusion:
    The terrorist attacks on September 11, 2001 have become a defining 
moment for the future of the United States and the rest of the 
civilized world. They have challenged us to define the future of 
managing the protection of our country. While some ask why so late; 
others comment why not more; and still others ask when will we know it 
is enough? Our question and your challenge is how to assure we the 
people charged with ``turning victims into patients'' are able to 
adequately respond?
    Based upon the aforementioned training and operational gaps that 
have been identified as impeding the ability of EMS responders to 
safely and effectively confront the threat of CBRNE terrorism, the 
National Association of Emergency Medical Technicians recommends modest 
changes in the existing legislation to accomplish the following:
        (1) A separate and discrete grant system that addresses EMS 
        preparedness and training issues and administered by the 
        Department of Homeland Security.
        (2) Empowerment of the Department of Homeland Security to 
        insure that EMS responders of all levels have the necessary 
        Personal Protective Equipment to protect themselves.
        (3) Utilization of the newly promulgated National Response 
        Goals to insure that EMS has the appropriate resources to 
        respond to disaster and terrorist incidents.
        (4) Establishment of a minimum educational standard for all EMS 
        providers to insure that they are capable of responding to a 
        terrorist incident.
    In conclusion, NAEMT supports H.R. 1544, the ``Faster and Smarter 
Funding for First Responders Act of 2005. There are more than 950,000 
EMTs and Paramedics across this great country who each and everyday 
respond to the call for help. When the next disaster occurs they will 
respond despite the fact that many are poorly prepared and may be 
sacrificing their well-being or lives to provide assistance to their 
community in need. This bill is a good and necessary step toward the 
improvement of preparedness in our country. We hope that this bill will 
also make significant strides toward providing assistance to our 
forgotten first responders across the United States. Thank you for this 
opportunity to speak on behalf of the EMTs and Paramedics and I would 
be happy to respond to any questions that the Committee Members may 
have.

References:
An Overview of Incident Management Systems Perspectives on 
Preparedness, Harvard University, Kennedy School of Government--Belfer 
Center for Science and International Affairs & Taubman Center for State 
and Local Government Hank Christen; Paul M. Maniscalco; Paul Vickery, 
Francis Winslow

Combating Chemical, Biological, Radiological, and Nuclear Terrorism: A 
Comprehensive Strategy Frank J. Cilluffo Washington, DC: CSIS, Winter, 
2000.

Domestic Preparedness: The Grand Illusion Emergency Medical Services: 
The Journal of Emergency Care and Transportation, Vol. #30, No. 04 
April 2001; Paul M. Maniscalco MPA PhD(c) EMT/P

Hype or Reality? The ``New Terrorism'' and Mass Casualty Attacks--
Public Safety Agencies: Trying to Define Readiness while Surviving the 
Rhetoric--Chapter 15 Maniscalco, Paul M. and Denney, James P. The 
Chemical and Biological Arms Control Institute, Alexandria, VA ISBN 0-
9656168-1-9

The EMS Incident Management System--EMS Operations For Mass Casualty 
and High Impact Incidents Christen, Henry T. and Maniscalco, Paul M. 
March 1998 Brady--Prentice Hall, Upper Saddle River, NJ ISBN 0-89303-
972-1

The Third Annual Report to the Congress of the Advisory Panel to Assess 
Domestic Response Capabilities for Terrorism Involving Weapons of Mass 
Destruction. The Advisory Panel to Assess Domestic Response 
Capabilities for Terrorism Involving Weapons of Mass Destruction, RAND, 
December 15, 2001.

Understanding Terrorism and Managing its' Consequences Maniscalco, Paul 
M. and Christen, Henry T. Prentice Hall, Upper Saddle River, N.J.July 
2002 ISBN 0-1302-1229-6

Understanding the Response to Acts of Terrorism Weapons of Mass 
Destruction Journal Vol. #1, No. 01 January 2002, Paul M. Maniscalco 
MPA, PhD(c), EMT/P, Hank T. Christen MPA, EMT/B & Gerald F. Dickens 
HMT, EMT/D

Winning Plays: Essential Guidance From the Terrorism Line of Scrimmage 
Perspectives on Preparedness, Harvard University, Kennedy School of 
Government--Belfer Center for Science and International Affairs & 
Taubman Center for State and Local Government Peter S. Beering, J.D., 
CFI, EMT/D, Paul M. Maniscalco MPA, Ph.D.(c), EMT/P, Hank Christen MPA, 
EMT/D, Steven B.Storment, EMT/P, A. D. Vickery, EMT/D Contributors 
Leslee Stein Spencer, RN, MS, Darrel Stephens, MPA, Francis Winslow, 
Ph.D., Steven G. Vogt 

[GRAPHIC] [TIFF OMITTED] T2844.001

[GRAPHIC] [TIFF OMITTED] T2844.002


    Mr. Shays. [Presiding.] Thank you.
    The chairman is at a meeting in the Speaker's office.
    And we are going to start with Mr. Thompson.
    And I would just like to thank all four of you for 
participating today and what I am told by staff as well is very 
thoughtful and helpful testimony.
    Mr. Thompson, you have the floor.
    Mr. Thompson. Thank you very much, Mr. Chairman. Let me 
also put my thanks into the panel for a wonderful presentation.
    Ms. Fetchet, obviously your family has paid the supreme 
sacrifice in this issue. And I hope that this bill puts us in a 
position where, if such an emergency or catastrophe like this 
happened again, we will be in a position to respond amply, 
coordinated; we can talk to each other and some of the errors 
of 9/11 will not be repeated.
    I look forward to the speedy passage of this.
    Chief Lord, Clinton, Mississippi is in my district, where 
your national headquarters is. And let me compliment you for 
wonderful testimony.
    But there are a couple of questions that have concerned me 
and I would like to ask the three individuals who are 
intricately involved in it. States are required to develop 
plans. Have you had or any of your organizations had any 
involvement in helping prepare the states' plans, to your 
knowledge?
    Mr. Lord. Here again, Mr. Thompson, EMS has historically 
been left out of the response planning process, as we alluded 
to. If you refer to our written testimony, you will find 
several citings of that issue.
    At a state level, it is entirely state-dependent. You will 
find states in this country that are very good at it, in--I 
guess--putting our people at the table and ensuring that the 
pre-hospital emergency response system is adequately 
represented as part of the entire response.
    In other states, you will find them not there. It is a very 
diverse situation.
    Mr. Thompson. Mr. O'Connor?
    Mr. O'Connor. I would concur with that. And I would 
actually take it one step further.
    I think that most of the asset delivery on responding to 
any incident is done at the local level. And regrettably, while 
there are certain anomalies to this where some states do a very 
good job, by and large, the fire service is kept on the 
sidelines with respect to pre-planning these types of things 
and really having involvement, in terms of benchmarking and 
defining essential capabilities and, for that matter, even what 
type of resource allocation should be thought about and 
utilized in this type of planning.
    I think that beyond just the task force, if we had our 
druthers, in the development of state plans, I think there 
should be some type of instruction that both local fire and 
police be involved in the development of those types of plans. 
I think it would make it more consistent and we would all be 
better served.
    Mr. Thompson. Inspector Cannon?
    Mr. Cannon. Mr. Thompson, here in DC, there is 
unfortunately a strange disconnect a lot of times between the 
federal and the municipal sector within law enforcement. And 
because of the uniqueness of DC, where your fire department is 
kind of the municipal and not linked to the federal, there is 
an even bigger disconnect.
    Let me just say that I have called repeatedly for a summit 
within DC for all law enforcement, number one, to sit down and 
talk about planning, evacuations, reactions and things of that 
sort. And the FOP nationwide has always been a strong supporter 
of that.
    I really do not think that, should another 9/11 hit or any 
type of disaster, whether it be terrorist or national, that the 
individual, the member, the citizen, anybody who is trying to 
get to a safe place really cares what uniform the person 
standing at the corner directing traffic is wearing. I think 
they just want to know that there is somebody there that is 
helping them to respond.
    It can be vastly improved. It is there. It is just not 
being used, unfortunately, in our opinion. There is a lot of 
interoperability capabilities that are there that could be 
pressed into service.
    Mr. Thompson. Well, you know, one of the things with this 
bill, we are hoping, is that to the extent that the risk 
analysis and the targeting the resources follow according to 
plan, that can be avoided because the resources will not follow 
unless the plan is adopted. So another issue that we were 
trying to address for Ms. Fetchet's, I think, real concern, we 
are trying to do away with earmarking so that influential 
members of Congress will not be able to expand the resource 
allocation beyond what the plan calls for or send it to an area 
that is not as needy as another.
    It will be based on a plan. And so we hope that we can 
maintain this all the way through this legislation and 
ultimately authorization and the appropriation process.
    If so, we will avoid some of the errors of the past. And on 
this committee, support for it has gone on in the past. As the 
chairman indicated, all of us have signed on to the new bill.
    We think it should be based on risk and threat and 
analysis. And we look forward to the approval of the bill. And 
your testimony here today adds significant weight toward 
getting it approved.
    Ms. Fetchet. Chairman Thompson, I wanted to add, I just met 
with our local responders. And they really have taken upon 
themselves. They have not received the funds. They have raised 
their own money and put a pretty comprehensive system together. 
Because we are from small towns, they have built a coalition.
    And so many people are taking it upon themselves to have a 
system in place. They are not waiting for the government.
    The other thing that I would like to add, as far as first 
responders, oftentimes the people that are at the events become 
first responders. So I think in terms of how can we educate 
people in the general community on many of these issues, 
because oftentimes they become the first responders.
    Mr. Thompson. Thank you.
    Mr. Shays. I thank the gentleman.
    I would like to ask each of you whether--and you have 
spoken to this in your testimony, but I would like to just kind 
of highlight it--should states be required to allocate funds to 
their localities on the basis of risk, not just the federal 
government?
    I will start with you, Ms. Fetchet.
    Ms. Fetchet. I think the sates should have some 
responsibility, not just in allocating funds, but identifying 
what the risks are within those communities.
    Mr. Cannon. I would address that as if it is good enough 
for the U.S. Congress, I would think it would be good enough 
for the states to follow the lead example.
    Mr. O'Connor. Nothing further to add, aside from 
absolutely. Certainly, they should.
    Mr. Lord. I am sure this will surprise everybody, but this 
is actually one thing I think we all agree on. States need to 
follow the Congress on this issue.
    Mr. Shays. Well, let me then just jump to the next point. 
All of you represent first responders across America. You are 
focused on this issue.
    And you are representing big cities, counties, small towns 
and so on. But you also support risk funding. And it is 
intriguing to me that that is the case. In other words, it is a 
pretty solid message.
    Tell me as succinctly as you can, why. Whether you are big 
or small, why is risk funding important?
    We will go in the opposite direction. We will start with 
EMS first.
    Mr. Lord. NAEMT believes very strongly that our 
constituency first and foremost cares about their patients. 
That is a basic tenet of doing what we do is we are there for 
the people that we show up for each and every day.
    I think as part of that, our constituency supports the 
appropriate use of funding and training to ensure that those 
areas that are at greatest risk have the resources they need. 
Couple that with the fact of what I alluded to, is that we also 
require a baseline across our country of minimum standards to 
address the issue of EMS training and PPE.
    As a result of those kind of issues, we believe that by 
managing the money appropriately, we have the ability to 
provide that to all of our constituencies and ensure better 
preparedness.
    Mr. O'Connor. The IAFF is in a rather unique position in 
the fact that we have about 3,000 affiliate locals across the 
country. And the overwhelming majority of our affiliates are 
from very small jurisdictions.
    So we come here with that recognition, but also with the 
recognition that in terms of providing the service, we 
recognize that both police and fire are inherently local 
government responsibilities. And in light of 9/11, the federal 
government has to assist and assume some responsibility in 
homeland security. But at the core, they still remain local 
government functions.
    As such, recognizing that federal resources are not 
unlimited, if we are really concerned about protecting 
communities, you have to look at the things that we alluded to 
earlier. What is the vulnerability? What is the risk? And what 
is the threat level?
    And simply put, in order to do that, in order to ensure 
that our money is being properly spent, it has to be based on a 
risk-based formula.
    Mr. Cannon. First, you should all be scared when the police 
and the fire can agree on something and get together. That 
should send you a message.
    Mr. Shays. It is a great message.
    Mr. Cannon. One of the things that we do in public safety--
and I am going to use the term ``public safety'' in this 
aspect--is every day, is risk assessment and analysis for us--
whether we are sitting in a fire station waiting for the alarm 
to come; whether you are out on patrol looking for the bad guy; 
or you are dealing with the incident before you. That is why we 
can use risk analysis and assessment as good as we can.
    And that is why I think that that is why we can agree on 
this, is because it is a commonality amongst us that we know 
what to look for there. And we can always work together at that 
magic moment when we have to.
    That is why we are in agreement. And that is why you should 
go there, is the fact that we know what the risks are.
    We can get the risk analysis and the assessment. When you 
couple that with the intelligence gathering and put it 
together, you have taken that data and given yourself the 
correct information, you have then given yourself a formula for 
success. And I think that is what you are looking for.
    Mr. Shays. Just if you could conclude?
    Ms. Fetchet. Well, I agree with what everyone said here. 
The thing that I would say, just hearing from people that live 
in New York, people that are not family members are very 
concerned about their safety.
    And I think long-term, you are going to see, if this is not 
addressed and we continue to have ongoing threats and stressors 
on our city, you know, large events like the conventions and so 
forth, that you are going to see a change in the makeup of the 
city because I am hearing from people that they are fearful for 
their lives. They are making decisions to retire early, to move 
out of the city.
    You are seeing businesses move out of cities. And I think 
there are going to be long-term repercussions unless you have a 
focus on risk assessment.
    I would encourage you too to look at all three of these 
organizations. I have friends that are in the medical business 
and are responsible for EMTs. They get lost, despite being 
often first responders.
    And of course, when you look at the chemical and all these 
other protections that they need, they are not prepared. I 
think you also have to look at surrounding communities and 
preparing those communities and look at the issue of staffing 
because even in the FBI, I have heard from their organization 
that they are having people retire early because of the long 
hours and the continued stress.
    Mr. Shays. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Rogers. [Presiding.] The gentleman's time is expired.
    The chair recognizes Mr. Langevin is recognized for 5 
minutes.
    Mr. Langevin. Thank you, Mr. Chairman. And I want to thank 
the panel for being here today and for your assistance in 
support of the first responder legislation that Chairman Cox 
and Ranking Member Thompson have developed.
    And it really is, I think, a testament to both the 
importance and the bipartisan nature of the bill that every 
member of this committee has signed on, supporting it. It 
really is of value. Thank you.
    Just a couple of questions, if I could. We touched on some 
of these already.
    You know, a common complaint that I hear from local 
governments and first responders is the length of time that it 
takes for funds to trickle down to the local level where they 
can actually be used. So I guess I would like to know: what 
steps do you think that could be taken to speed up the process 
and shorten the time between when the states receive homeland 
security funding and when local governments receive it from the 
states?
    And as a follow-on to that, a related question, do you 
think that the flow of money from DHS through the states and 
then to local entities is the right approach? Or should more 
programs follow the COPS and FIRE grant models and send the 
funds directly through the federal government to the local 
first responders?
    My next question, if I could, and I think you may have 
already addressed this too, but specifically, the terrorist 
threat depends on what terrorists intend to attack. And I think 
it is safe to say that terrorists certainly do tend to attack 
the United States where the defensive countermeasures are the 
weakest.
    Terrorists presumably know what areas have been worthy of 
receiving grant funds and it stands to reason that areas we 
determine to be low-threat could theoretically then actually 
become higher. So to that point, if that is the case, doesn't 
it make sense to ensure that all communities do have some 
baseline level of security?
    And I also tie that to the fact that not only are these 
assets going to be used to prevent and respond to a terrorist 
attack; but also there are natural disasters or accidents that 
are going to occur and tragedies that are going to occur. And 
so these assets will be used.
    I think directly of my own home state of Rhode Island 
where, a few years ago, we had the horrible Station Nightclub 
fire where there were 100 lives that were lost and hundreds 
that were injured. And I know clearly from that night that many 
lives were saved because of the quick response of first 
responders.
    So clearly, having good equipment, coordination and 
training benefited that terrible night. And more lives probably 
could have been lost, but the people were saved.
    So I think that is an example of how assets will be used 
not only for terrorist attacks, but also in response to other 
events.
    So if you could respond to both of those questions?
    Mr. Cannon. Let me just say, you are looking at first of 
all, in some of your analogies there, you are looking at a 
couple of different things for your all-hazards approach. As 
far as prevention goes, we cannot arrest a hurricane or go out 
and put a road block up and stop a tornado. So when you are 
dealing with that type of incident, you need to be prepared.
    And a lot of your response-type avenues can be reutilized 
under that. So I think that there can be some cross-over in 
that aspect of it.
    But for the prevention, you have to have a strong 
intelligence and the prevention of law enforcement to go out 
there, to be able to do, in conjunction with the rest of public 
safety, your analysis or risk assessments on what are your 
targets. And when you harden one target, remember you are 
softening another target. So all that has to be taken into 
consideration on an across-the-board approach.
    I have some good friends down in Mr. Thompson's district, 
down in Mississippi. And one of the things that they taught me 
from down there was: if it is not broke, do not fix it.
    So if you have a grants program such as COPS that is 
working, I think that if you model it similarly, I think that 
you are going to find it more effective in doing things of that 
nature. The grants need to be, once they are identified, need 
to be transcended. And the money needs to get there as quickly 
as possible so it can translate into the proper equipment that 
you need for Hazmat or the prevention, the joint operation 
centers for those things.
    So the quicker the funding can be identified, the quicker 
that the assessments can be done, using the COPS grant 
approach, I think you can find yourself a good model that is 
already in place. And again, the intelligence and the analysis 
plays a very important role in all of this in identifying your 
terrorist threats compared to your natural disasters.
    But a lot of the stuff should be able to be available and 
used when you have that capability.
    Mr. Rogers. The gentleman's time has expired.
    The chair recognizes my friend and colleague from 
Connecticut, Mr. Simmons, for 5 minutes.
    Mr. Simmons. I thank you, Mr. Chairman. And I thank the 
witnesses for their testimony. I have not been present for much 
of it, but I have read it.
    And Mary, I thank you for your testimony, all your fine 
work, as a person who has made a huge difference, who has 
turned something terrible into something better. And I 
appreciate your involvement with Voices for September 11.
    You quoted a Connecticut resident on page four. I do not 
know whether you knew it or not.
    [Laughter.]
    I believe it was Mark Twain of Hartford who said, ``Common 
sense is not so common.'' And common sense is what we need to 
apply to the problems we face.
    Risk assessment is one element of common sense, try to 
place our resources where we think they will be needed most. 
And earlier today, we talked about the issue of intelligence 
analysis to assess vulnerability and consequences, which is not 
the way we usually think in the intelligence community, but it 
is the way we have to think now when it comes to homeland 
security.
    And I wanted to direct my questions specifically to Mr. 
O'Connor, but anybody else can respond if they wish.
    On page five of Lee Hamilton's testimony, he makes 
reference to the federal grant board of 25 homeland security 
experts who will evaluate the state applications on the basis 
of their potential to reduce the threat, vulnerability and 
consequences. So it is a grant board.
    And yet, my recollection with FIRE grants is that you have 
peer review. And maybe in certain other areas you have peer 
review.
    And the best part of peer review is that people who are 
actually charged with the responsibility of dealing with these 
problems assess each other. They know each other. They are not 
going to give something away to somebody when they know in 
their heart that it does not make sense.
    And so my question to you and anybody else who wants to 
testify is: should we be taking this one step further and going 
perhaps beyond the board or having a board-plus, where there is 
some component of peer review so people within the states and 
within regions have an opportunity to appraise each other's 
applications?
    Mr. O'Connor. Well, one of the things that I was pretty 
definitive in my testimony about was the fact that we hope that 
in any final authorization, that task force or grant board is 
included in any final product because we think it is 
imperative. And that was the venue that we hoped to have some 
type of participation from the first responder community.
    But your analysis is absolutely correct. My colleague, 
Inspector Cannon, said it is unique when you get fire and 
police to agree. But it is even more unique when you get the 
fire service community to agree.
    And with respect to the assistance, the fire fighter's 
grant program, when the idea of peer review was first hatched, 
a lot of folks did not think it would work. We brought together 
the chiefs, the volunteers and the IAFF.
    And it has worked magnificently in terms of benchmarking, 
reviewing applications, coming up with measures to qualify. And 
then once the qualification measures were come up with, 
evaluating the individual branch.
    Certainly, I think that we all have a vested stake in 
making sure that dollars are spent wisely. And I guess my only 
real answer--my direct answer to your question--would be: 
absolutely any process, if we can get first responders involved 
in it--the task force, the task force-plus, some type of 
regional peer review involving first responders--we would 
wholeheartedly endorse.
    Mr. Simmons. And the ranking member has properly raised the 
issue of rural versus urban. And it would seem to me, in my 
experience with the FIRE grants, we have urban fire departments 
and we have rural fire departments. They understand each other 
pretty well.
    And perhaps a natural way of obviating the issue of rural 
versus urban is if there is peer review on a larger scale. It 
is peers judging peers. And you would not get into the issue of 
whether this is one sort of constituency against another.
    Mr. O'Connor. Well, certainly, I mean, even in 
jurisdictions that do not have as much population or direct 
threat--skyscrapers, et cetera. In the ranking member's 
district, for example, there is a nuclear facility. I mean, 
clearly those are the type of issues and the type of threats 
that need to have some form of analysis to determine the 
appropriate allocation.
    Mr. Simmons. I thank you.
    If anyone else wants to comment, I would be happy to hear 
from them.
    Mr. Lord. Yes, Congressman.
    From our perspective in emergency medical services, we have 
the issue that we have not really been involved, people at the 
table, for a long time in the process. And I think that the 
board is a great place to start. But clearly, we have to take 
that board beyond that process.
    Emergency medical services is provided in this country 
through a very diverse process. Part of it is fire-based; part 
of it is third service; part of it is hospital based; part of 
it is volunteer, a very large part of it.
    So because of those issues, I think that those issues have 
to be brought to the table beyond the step of the board to 
address those grant funding issues that are unique to the 
delivery of the service. I think if we do not do that on the 
backside of that board, we are actually going to be putting 
ourselves in the position of not having met the need. And we 
will be back here 5 years from now, after an event, going: what 
happened?
    Mr. Simmons. I thank the board.
    Mr. Cannon. Just very quickly, just make sure that you do 
have law enforcement representation on there, to include the 
intel and everything that is going to go on there, because as I 
said, you have to have a complete picture when you are doing 
the analysis.
    Mr. Rogers. The gentleman's time is expired.
    The gentlelady from Texas, Ms. Jackson-Lee, is recognized 
for 5 minutes.
    Ms. Jackson-Lee. I thank the distinguished chairman and the 
ranking member of the full committee. And let me also thank the 
chairman and ranking member for a very thoughtful initiative 
and thank the witnesses very much.
    And Ms. Fetchet, let me offer to you again, as I know and 
hope that we have expressed in the past, our deepest sympathy 
and appreciate--and I really mean this--for families that are 
grieving, to continue their engagement and involvement in this 
process.
    This is a long journey. We are not yet complete.
    Yesterday, in a hearing, I mentioned that the new Secretary 
for the Homeland Security Department has an enormous task. And 
I look at the gentlemen who are here, coming from different 
agencies and disciplines, I would hope they might view 180,000 
employees as a very large task, to be able to organize, to be 
able to--and when I use the term ``discipline,'' of course, 
define if you will integration and as well interoperability.
    That is the mountain that we are climbing. And as we begin 
to look at how we can be more effective outside of the 
department and reach out into areas, we appreciate your 
assessment regarding the risk question.
    Let me pose a few questions to you on management of the 
department as it relates to dealing with the first responders 
outside of the beltway. And I would appreciate your comment.
    What ways can we be more efficient in the reach? Now we 
know we are talking about reordering the assessment of grants. 
But I want to make sure that there is the appropriate 
interaction between the national organizations that are 
represented here, between our first responders, in their access 
to homeland security. That is important.
    And the second question is that, as you well know, in the 
first responder's legislation, Section 1803, the Secretary is 
going to establish clearly defined essential capabilities for 
state and local governments. So they are going to give us sort 
of a road map, a list, that you will determine the grants by.
    Would it be helpful if this was put into regulation, 
proposed regulations, which would then allow local responders 
and local jurisdictions to comment on whether or not, as they 
see it, it is the most effective focus? Meaning that they are, 
``Good, this is the right kind of road map. We can adhere to 
this. We have the data to adhere to this.''
    Because as it stands now, they will simply establish it. My 
view is that it would be helpful if the review process would be 
allowed for a comment time. And therefore, when it is 
ultimately put in place, it is in fact a procedure that you 
could adhere to.
    I would appreciate the comments, starting with Inspector 
Cannon, if you will.
    Mr. Cannon. I think one of the most important things is the 
fact that they do have input, but you do not want to delay the 
timeline unnecessarily to get this product out to them, where 
the funds are not available due to unnecessary delay.
    So I think that is going to be one of the key things, that 
if you do want to get comments, that you do timeframe it 
appropriately so that there is no unnecessary delay.
    Ms. Jackson-Lee. Absolutely.
    Mr. Cannon. As you say, working with 180,000 individuals is 
probably not the most simplest thing in the world, especially 
when you are trying to build a new framework. Input is always 
valuable.
    To make sure that those people are involved and your 
personnel always are ensured the respect that they get and that 
they need to ensure that their job capabilities can be done, I 
think is a key focus that must be identified there.
    Ms. Jackson-Lee. What is your present relationship with 
Homeland Security? Do you have sort of a conduit with which you 
could reach through this department?
    Mr. Cannon. I have direct access to Homeland Security by 
virtue of where I work. And our organization has very good 
capabilities sitting on the Homeland Security Advisory Board.
    Ms. Jackson-Lee. Ah, so you have direct. Let me go on to 
Mr. O'Connor and Chief Lord.
    Mr. O'Connor. From our perspective, we think that in order 
to really have the dialogue, that it has to be outside the 
Beltway. And I think your observation was very astute.
    What I think the Department of Homeland Security needs to 
do is in terms of their reach-out to first responders: one, 
national organizations are a wonderful place to start. But they 
also have to get out to the communities.
    We truly know what the mission is. Using academicians and 
people who are from think tanks is a great idea. But when you 
are really talking about what needs to be done, the bricks and 
mortar of emergency response, the people who know that are the 
ones who are confronted it.
    And as I said to an earlier question, we are going to be 
the ones that are first on the scene. So specific to the first 
responder piece of it; not the intelligence or border security, 
but first responders, more than anything else, they have to get 
into the communities, listen to the fire chiefs, the police 
chiefs and the rank and file first responders.
    Beyond that, certainly any opportunity to comment on 
regulations would be more than welcome. But I think their 
outreach needs to be consistent and ongoing.
    Mr. Rogers. The gentlelady's time is expired.
    I want to thank all the witnesses for being here today and 
your valuable testimony. The members of the committee may have 
some additional questions. And we are going to leave the record 
open for 10 days for those to be submitted.
    Again, I thank you for your testimony.
    I thank the members for their questions.
    And this committee hearing is adjourned.
    [Whereupon, at 2:31 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
